<html>
<title> - FROM THE BORDER TO DISASTERS AND BEYOND: CRITICAL CANINE CONTRIBUTIONS TO THE DHS MISSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






FROM THE BORDER TO DISASTERS AND BEYOND: CRITICAL CANINE CONTRIBUTIONS 
                           TO THE DHS MISSION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 18, 2017

                               __________

                           Serial No. 115-16

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE 

27-490 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                              
                               
                              
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
              Kathleen Crooks Flynn,  Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
Jeff Duncan, South Carolina          J. Luis Correa, California
Tom Marino, Pennsylvania             Kathleen M. Rice, New York
John Ratcliffe, Texas                Nanette Diaz Barragan, California
Clay Higgins, Louisiana              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................    13
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15

                               Witnesses

Mr. Damian Montes, Director, Canine Training Program, U.S. 
  Customs and Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     2
  Joint Prepared Statement.......................................     4
Mr. Peter Jaquez, Acting Deputy Chief, Law Enforcement 
  Operations--Specialty Programs, U.S. Border Patrol, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................     4
Ms. Melanie Harvey, Director, Threat Assessment Division, 
  Transportation Security Administration, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................     4
Mr. Patrick Carrick, Director, Homeland Security Advanced 
  Research Projects Agency, Science and Technology Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................     4
Dr. Jennifer Brown, Canine Search Specialist and Team 
  Veterinarian, Urban Search and Rescue--Florida Task Force:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22

                             For the Record

The Honorable Gary Palmer, a Representative in Congress From the 
  State of Alabama:
  Article, Wall Street Journal...................................    36
 
FROM THE BORDER TO DISASTERS AND BEYOND: CRITICAL CANINE CONTRIBUTIONS 
                           TO THE DHS MISSION

                              ----------                              


                         Thursday, May 18, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Duncan, Higgins, Correa, 
Rice, and Barragan.
    Also present: Representative Palmer.
    Mr. Perry. The Committee on Homeland Security, Subcommittee 
on Oversight and Management Efficiency will come to order.
    Hello, everybody. The purpose of this hearing is to examine 
canine programs across DHS and how canines contribute to the 
critical Homeland Security mission. I am gonna deviate from the 
normal discourse here just so we can expedite, thinking about 
votes being early here.
    So we are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statements will appear in the record. The Chair will introduce 
the witnesses first and then recognize each of you for your 
testimony.
    The Ranking Member, welcome.
    Mr. Correa. Yes, sir.
    Mr. Perry. All right. Mr. Damian Montes, is that correct as 
I have it?
    Mr. Montes. Yes, sir.
    Mr. Perry. Pronunciation correct?
    Mr. Montes. Yes, sir.
    Mr. Perry. Thank you.
    Is the director of Customs and Border Protection's Canine 
Training program. Mr. Montes began his career in the U.S. 
Marine Corps. Subsequently he graduated from the Department of 
Defense's Military Working Dog Handler Course and is a former 
handler.
    Mr. Montes joined CBP in 2002. We thank you for your 
service, sir.
    Mr. Peter Jaquez, is that correct? I think?
    Mr. Jaquez. Sir, it is Jaquez.
    Mr. Perry. Jaquez, thank you. Is the acting deputy chief of 
law enforcement operations in the Specialty Programs Division 
at the U.S. Border Patrol. In his capacity, Mr. Jaquez oversees 
the Border Patrol Canine Program, All Terrain Vehicle Program, 
Horse Patrol, and other programs.
    He has attended the Border Patrol Handler Course and is a 
former handler. Prior to joining the Border Patrol, Mr. Jaquez 
served in the U.S. Navy.
    Thank you for your service, sir.
    It is Melanie Harvey.
    Ms. Harvey. Yes, sir.
    Mr. Perry. Yes, ma'am.
    Ms. Melanie Harvey is director of TSA's Threat Assessment 
Division for the Office of Security Operations. The Threat 
Assessment Division provides oversight and support to over 
4,500 specialized screening assets across the Nation and 
territories including explosives, ordinance, and disposal 
experts, and explosive detection canine teams.
    She has held her current position since 2013, and joined 
TSA in 2004. Welcome.
    Dr. Patrick Carrick, correct, is the acting chief scientist 
and director of the Homeland Security Advanced Research 
Projects Agency within the Science and Technology Directorate 
at DHS.
    In this position he oversees the management of the National 
Technology Research and Development for DHS.
    Prior to joining DHS, Dr. Carrick held positions in the 
U.S. Air Force.
    We thank you, sir. All of us wish we could put scientist 
behind our name.
    Dr. Jennifer Brown serves as a canine--correction, serves 
as a canine search specialist and team veterinarian for Florida 
Taskforce Two Urban Search and Rescue.
    She has served on multiple urban search and rescue teams 
and was deployed to Mississippi and Louisiana following 
Hurricanes Katrina and Rita.
    Thank you, ma'am.
    Thank you all for being here today. Are we going to do the 
statements? We are going to go through them? OK.
    The Chair recognizes Mr. Montes for an opening statement.

STATEMENT OF DAMIAN MONTES, DIRECTOR, CANINE TRAINING PROGRAM, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Montes. Good afternoon, Chairman Perry, Ranking Member 
Correa, and distinguished Members of the subcommittee. Thank 
you for the opportunity to testify today about the Canine 
Training Program at U.S. Customs and Border Protection.
    I am the director of the CBP Canine Training Program. I am 
responsible for the administrative and operational training 
oversight of CBP's two canine training centers located in Front 
Royal, Virginia and El Paso, Texas.
    The CBP Canine Training Program is the fusion of two legacy 
training facilities, the legacy U.S. Customs Service Canine 
Enforcement Training Center and the U.S. Border Patrol National 
Canine Facility.
    The merger of these two entities allowed the CBP Canine 
Training Program to build on decades of established expertise 
in law enforcement canine training and to capitalize on best 
practices.
    The primary mission of the CBP Canine Training Program is 
to provide the initial basic training and certification to CBP 
officer agent canine handler teams and instructors. We provide 
training in concealed human and narcotic detection, currency 
and firearms detection, human remains cadaver detection, 
tracking and trailing, search and rescue, patrol, pedestrian 
processing, and a recertification instructor course.
    Under the direction of the Office of Training and 
Development the CBP Canine Training Program also offers formal 
training to various Federal, State, local, and Tribal law 
enforcement agencies.
    Additionally, the CBP Canine Training Program supports 
canine training initiatives under the direction of the Office 
of International Affairs. In coordination with the Department 
of Defense, State, and USAID, we help provide capacity building 
and technical assistance to our partners abroad.
    For example, in 2015 at the request of the Government of 
Tanzania, CBP leadership and the U.S. Ambassador to Tanzania, 
and the CBP Canine Training Program conducted an initial 
assessment of the Government of Tanzania's capabilities with 
detection canines and canine training.
    Following the assessment, the CBP Canine Training Program 
developed a customized curriculum with ivory as a newly-trained 
odor. We were able to train four Tanzanian police officers who 
are posted at the Dar es Salaam seaport and airport.
    The teams have already had success with both ivory and 
narcotic seizures.
    While OTD develops and establishes initial training 
requirements of CBP canines, the utilization, maintenance, and 
deployment of canine teams is managed by CBP's operational 
components, the Office of Field Operations, and the United 
States Border Patrol.
    OFO and USBP teams are trained for specific missions as it 
relates to the laws in which they are governed. Our training 
cadre is comprised of expertise, CBP law enforcement officers, 
and agents from OFO and USBP, also known as Course Developer 
Instructors, who serve a 3- to 5-year instructional assignment.
    The canine training process is very much a team effort. In 
addition to our dedicated team of instructors and colleagues 
across our agency, CBP's Laboratories and Scientific Services 
Directorate deserves special recognition.
    Utilizing traditional scientific support LSSD conducts 
special research meant to optimize the detection and 
identification of signature odor profiles for certain 
narcotics.
    With respect to detecting Fentanyl, CBP scientists have 
been conducting special research to determine the detection and 
identification of signature odor profiles for Fentanyl 
compounds.
    The relevant components within CBP are all working together 
to assess the feasibility of safely and effectively adding 
Fentanyl as a trained odor to OFOs deployed in narcotic 
detection teams.
    The pilot project will continue through the remainder of 
2017 with evaluations conducted as scheduled benchmarks.
    In conclusion, I am honored to be part of the CBP Canine 
Training Program and appreciate the opportunity to share our 
efforts with you today. I am happy to answer any questions that 
you may have.
    Now, I believe we have two CBP Canine Handlers here today 
to demonstrate the capabilities of the OFO canine program. Our 
first demonstration will be led by CBP Agriculture Specialist 
Canine Handler Christy Currier and her canine, Callen.
    Agriculture Inspector Currier joined CBP in the mid-2000's 
and since 2008 has been working as an Agriculture Canine 
Handler. Agriculture Canine Inspector Currier's canine, Callen, 
joined her at Dulles International Airport in 2012.
    Callen's perky disposition is perfect for working around 
thousands of people daily.
    [Demonstration No. 1, off mike.]
    Mr. Montes. So, if I can draw your attention to the second 
demonstration? OK. The second demonstration will be led by CBP 
Officer Robert Stone with his canine, Pharoah.
    CBPO Stone retired from the Air Force after 20 years of 
service and joined Legacy Customs in 1998. In 2008, CBPO Stone 
became a canine handler at Dulles International Airport. He and 
his canine partner, Pharoah, have been working together since 
2014 with numerous accomplishments under their belt.
    [Demonstration No. 2, off mike.]
    Mr. Perry. Committee can stand fast. We just want to 
recognize Ms. Harvey for her remarks because she didn't give 
them yet.
    So Ms. Harvey, please.
    Ms. Harvey. Thank you. I understand we are going to do the 
demo first. So it is my honor to introduce you to Doug 
Timberlake and his canine partner Reverso who work as a 
passenger screening canine team at Ronald Reagan Washington 
National Airport.
    [Demonstration No. 3, off mike.]
    [The joint prepared statement of Mr. Montes, Mr. Jaquez, 
Ms. Harvey, and Dr. Carrick follows:]
  Joint Prepared Statement of Damian E. Montes, Peter Jaquez, Melanie 
                      Harvey, and Patrick Carrick
                              May 18, 2017
                              introduction
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, thank you for the opportunity to testify regarding the 
canine programs at the Transportation Security Administration (TSA), 
U.S. Customs and Border Protection (CBP) and the Science and Technology 
Directorate (S&T). Canine teams at TSA, CBP, and S&T provide the U.S. 
Department of Homeland Security (DHS) with reliable and mobile 
detection capabilities and a visible deterrent against criminal and 
terrorist threats. Detection canines are the best and most versatile 
mobile detection tool that we have protecting the homeland today. 
Canines have been used by law enforcement and first responder agencies 
for decades to protect the homeland.
    At our Nation's air, land, and sea ports of entry (POEs) and at 
preclearance locations abroad, CBP officers utilize specially-trained 
canines for the interdiction of narcotics, firearms, and undeclared 
currency, as well as in support of specialized programs aimed at 
combating terrorism and countering human trafficking. In between the 
POEs, the U.S. Border Patrol (USBP) uses canines to detect illegal 
aliens, intercept narcotics, and stop smugglers at checkpoints and 
along our borders. The CBP Canine Training Program maintains the 
largest and most diverse law enforcement canine training program in the 
country. It is primarily responsible for the initial training of 1,342 
of the over 1,448 deployed CBP canine teams throughout the United 
States.\1\
---------------------------------------------------------------------------
    \1\ Of the current 1,448 canines deployed today in CBP, the CBP 
Canine Training Program trained 1,342; the remaining 106 are 
agriculture canines trained by the U.S. Department of Agriculture in 
Newnan, Georgia.
---------------------------------------------------------------------------
    TSA procures, trains, and deploys explosives detection canine teams 
to secure our Nation's transportation systems through visible 
deterrence and timely, mobile operations that support airports, mass 
transit, and other transportation facilities across the country.
    The mission of the Detection Canine Program within the Explosives 
Division of S&T's Homeland Security Advance Research Projects Agency is 
to provide the Homeland Security Enterprise with the tools, techniques, 
and knowledge to better understand, train, and utilize the domestic 
detection canine. S&T works with DHS partners, including the TSA, CBP, 
Federal Emergency Management Agency (FEMA), other Federal agencies, 
State and local law enforcement and international partners, to provide 
a focal point for the Homeland Security Enterprise on canine research, 
development, testing, and evaluation. S&T's primary objectives are to 
promote intra-Department and interagency coordination, to drive the 
development of broadly applicable technologies, and to increase the 
operational proficiency of domestic detection canine teams. The events 
of the Boston Marathon bombing and recent attacks in Brussels, Paris, 
and Russia have spurred a specific focus within S&T's program on 
Person-Borne Improvised Explosive Device (PBIED) detection canines.
                  cbp canine training program history
    During the latter part of 1969, the former U.S. Customs Service 
carried out a study to determine the feasibility of using detection 
canines in the fight against drug smuggling. As a result of that study, 
canine trainers from various branches of the U.S. military were 
recruited, and on April 1, 1970, the U.S. Customs narcotic detector dog 
training program was established in San Antonio, Texas. Initially, 
efforts were concentrated on training dogs to detect the odors of 
marijuana and hashish, but the ever-increasing smuggling of narcotics 
would make the detection of heroin and cocaine equally critical to stop 
the threat these drugs pose to our citizens.
    In July 1974, the U.S. Customs Service detector dog training 
operation was relocated from San Antonio to its current location 70 
miles west of Washington, DC, in the town of Front Royal, Virginia. In 
1991, Congress approved additional funding for the facility in Front 
Royal, which led to the construction of a new 100-run kennel, academic 
building, small arms firing range, and vehicle training areas. These 
new additions brought the detection training program facility up to 
date as it continued to produce canines trained in disciplines such as 
searching pedestrians and detecting the odors of narcotics, currency, 
and firearms.
    In 1986, in response to an alarming increase in illegal alien 
apprehensions and narcotics seizures, the USBP created a pilot training 
program of canine teams trained to detect concealed humans, and the 
odors of heroin, cocaine, methamphetamine, and marijuana along our 
Nation's border. During the first 5 months of service, those initial 
canine teams accounted for numerous apprehensions of concealed people 
and over $150,000,000 in seized narcotics. The operational impact of a 
trained detection canine team was clear.
    In order to establish consistency in training and certification 
standards, in 1993, the USBP established its own canine training 
facility in El Paso, Texas. The USBP National Canine Facility adopted 
ideologies and disciplines from European working dog standards and 
received numerous accolades and recognition from local, State, Federal, 
and various international law enforcement agencies.
    In the aftermath of the terrorist acts of September 11, 2001, as a 
component of the newly-formed CBP, USBP and Office of Field Operations' 
(OFO) canine training programs were consolidated under CBP's Office of 
Training and Development (OTD) and renamed Canine Center El Paso (CCEP) 
and Canine Center Front Royal (CCFR). On October 1, 2009, the CCEP and 
CCFR were merged to create the CBP Canine Training Program. An 
integrated core curriculum was adopted combining the best practices of 
the legacy OFO and USBP training programs, each rich with history, 
tradition, and success. Training has been customized to ensure that the 
unique requirements of OFO and USBP are met.
    The primary mission of the CBP Canine Training Program is to 
provide the initial basic training and certification to CBP officer/
agent canine handler teams and instructors in the detection and 
apprehension of illegal aliens, and the detection and seizure of 
controlled substances and other contraband utilized to finance 
terrorism or transnational criminal organizations. Under the direction 
of OTD, the CBP Canine Training Program also offers formal training to 
various Federal, State, and local, and Tribal law enforcement agencies.
    Additionally, the CBP Canine Training Program supports canine 
training initiatives under the direction of the Office of International 
Affairs, in coordination with the Departments of Defense and State and 
the United States Agency for International Development (USAID), by 
providing foreign partners capacity building and technical assistance. 
As a resource center, the CBP Canine Training Program provides guidance 
on canine training issues, legal requirements, and certification 
standards to the operational components--OFO and USBP. While OTD 
develops and establishes the initial training requirements of CBP's 
canines, based on the components' needs and input, the utilization, 
maintenance, and deployment of canine teams is managed by CBP's 
operational components.
                    cbp canine training disciplines
    CBP's training cadre is comprised of experienced law enforcement 
officers and agents, also known as Course Developer Instructors, who 
come from existing field canine units and serve a 3- to 5-year 
instructor assignment. The CBP Canine Training Program possesses a 
unified training cadre consisting of OFO and USBP personnel who deliver 
training to integrated classes made up of CBP officers and USBP agents. 
This commonality brings with it the opportunity to seamlessly 
interchange staff to further integrate the CBP Canine Training Program. 
New canine teams and instructors continue to be trained in disciplines 
such as concealed human detection, pedestrian processing, detecting the 
odors of narcotics, currency and firearms, tracking and trailing, 
patrol, search and rescue, and human remains detection.
Concealed Human and Narcotic Detection
    The Concealed Human Narcotic Detection Handler course includes in-
depth training and certification in all aspects of canine behavior, 
along with handling, training and employing a passive indication 
detection canine, as well as canine policy, case law, and canine first-
aid. Both the officer/agent and the canine are taught proper search 
sequences when searching private and commercial conveyances, freight, 
luggage, mail, open areas of land and structures. Concealed Human and 
Narcotic Detection Canines are taught to detect concealed humans and 
the odors of marijuana, cocaine, heroin, methamphetamine, hashish, and 
ecstasy. This discipline makes up the largest portion of canines 
deployed within CBP totaling approximately 1,227 teams.
    OFO deploys specialized detection canine teams throughout the 
Nation, trained to detect drugs and concealed humans. The majority of 
the canine teams are concentrated in four field offices along the 
Southwest Border. In addition to the canine teams OFO deploys to the 
POEs, the USBP Canine Program deploys over 800 specialized detection 
canine teams--trained to detect concealed humans and narcotics--
throughout the Nation. The majority of the canine teams are 
concentrated in the nine Sectors along the Southwest Border. During 
fiscal year 2016, USBP canine teams were responsible for 41,807 human 
apprehensions and the seizure of 419,175 pounds of narcotics and 
$5,918,862 in currency.
    The use of canines in the detection of narcotics is a team effort. 
CBP's Laboratories and Scientific Services Directorate (LSSD) produces 
canine training aids and provides analytical support to the CBP Canine 
Training Program, including controlled substance purity determinations, 
pseudo training aid quality analyses, and research on delivery 
mechanisms that maximize safe vapor delivery during training exercises. 
From fiscal year 2016 to mid-year fiscal year 2017, LSSD produced and 
delivered over 3,200 training aids to the Canine Program for training 
and certifications, representing a 72 percent production increase.
    In addition to traditional scientific support, LSSD has been 
conducting special research aimed to determine the detection and 
identification of signature odor profiles for fentanyl compounds. OTD, 
OFO, USBP, CBP's LSSD, Office of Chief Counsel, and Labor Employee 
Relations are working together to conduct a pilot course to assess the 
feasibility of safely and effectively adding fentanyl as a trained odor 
to OFO's deployed narcotic detection canine teams. The project will 
continue through the remainder of fiscal year 2017, with evaluations 
conducted at scheduled benchmarks.
Search and Rescue
    The Search and Rescue Handler course includes in-depth training and 
certification in all aspects of canine behavior, along with handling, 
training, and employing a dual-trained search and rescue trailing 
canine, as well as canine policy, case law and canine first-aid. Both 
the agent and canine are taught obedience, tracking/trailing, and large 
area search. The canine teams receive training in rappelling for 
helicopter operations, backtracking, and deployments in various 
environments (snow, desert, forest, and mountains). During fiscal year 
2016, USBP search and rescue canines rescued 15 individuals.
    During one notable rescue, occurring on May 14, 2016, El Centro 
Sector received a request from the Imperial County (California) 
Sheriff's Office to respond to a 
9-1-1 call. An El Centro Sector canine handler responded, and deployed 
his canine in an attempt to locate these subjects in the El Centro 
Station area of operations. While hiking into the area, the canine 
alerted to and located the four subjects in distress. All four subjects 
were provided medical treatment by the El Centro Sector Operators, and 
then turned over to agents of the ELS Station for further processing.
    A regimen added to the search and rescue capability, some canine 
teams are also trained in human remains and cadaver detection. This 
ability enables the team to assist in a myriad of situations ranging 
from locating the remains of persons who have expired in remote areas 
to assisting local law enforcement with suspicious death investigations 
and responding in recovery operations during natural disasters and 
terrorist attacks.
    In fiscal year 2016, USBP human remains detection (HRD) canines 
assisted with a total of 11 human remains recoveries. On January 13, 
2017, San Diego Sector USBP received a request from the Chula Vista 
Police department for HRD canine assistance near Otay River National 
Park. The search request was in regards to a Chula Vista Police 
Department missing person/homicide investigation that has been on-going 
for approximately 12 years. USBP HRD canine handlers responded, and 
successfully recovered human remains.
Tracking/Trailing
    The Tracking/Trailing Handler course is an added capability to 
teams previously trained in detection or patrol. This course includes 
in-depth training involving conditioning a canine to follow the route 
of a person or persons traversing various types of terrain. Groups of 
aliens and smuggling organizations routinely travel cross-country. In 
areas where the ground surface is rough, such as mountainous 
environments, canine teams are able to track and trail where tracking 
is otherwise difficult or impossible.
    Track/trail canine teams are also used in the search for specific 
individuals. For example, USBP track/trail canine teams assisted in the 
manhunt for suspected cop killer Matthew Eric Frein in September 2014 
in Pennsylvania, in what became a 7-week deployment cycle. The USBP 
Special Operations Group (SOG) and Special Operations Detachments 
responded to the support request from the Pennsylvania State Police. 
Over the course of 7 weeks, over 100 Border Patrol Tactical Unit, 
Border Patrol Search, Trauma and Rescue and SOG-Intelligence Unit (SOG-
IU) personnel, mission-essential gear, and equipment were deployed to 
Pennsylvania in search of the fugitive who ambushed two troopers, 
killing one. Frein was successfully apprehended on October 30, 2014.
Patrol
    The Patrol Canine Handler course includes in-depth training and 
certification in all aspects of canine behavior, along with handling, 
training and employing a patrol canine to search, detain and when 
necessary physically subdue violent combative subjects. This course 
also includes training in canine policy, case law, and canine first-
aid.
    In fiscal year 2016, USBP Patrol canines assisted in a total of 167 
apprehensions, including in the execution of 14 arrest warrants and 18 
physical apprehensions. A notable canine deployment occurred on 
February 2 and 3, 2015 in the USBP Buffalo Sector in Erie, 
Pennsylvania. Named Operation Northern Stop, this operation involved 
the Drug Enforcement Administration; Homeland Security Investigations; 
Bureau of Alcohol, Tobacco, Firearms, and Explosives; Internal Revenue 
Service Criminal Investigation; United States Attorney's Office; United 
States Postal Inspection Service; United States Marshal's Service; 
Pennsylvania State Police; and Pennsylvania Office of the Attorney 
General. The target of this operation was a large drug-trafficking 
organization linked to the Knights Templar Cartel, based in Mexico. 
This organization was active coast-to-coast in multiple States, and was 
responsible for the importation and distribution of large quantities of 
marijuana, cocaine, heroin, and methamphetamine into and throughout the 
United States. Lauded a major success, and a significant blow to drug 
trafficking and distribution throughout the area, the operation 
resulted the arrest and prosecution of 30 subjects; the searching of 17 
locations in northwestern Pennsylvania; the seizure of $1,285,006 in 
United States currency; the seizure of $432,252 in jewelry; and the 
seizure of 23 vehicles.
Canine Currency/Firearms Detection
    The Currency/Firearms Detection Handler course includes in-depth 
training and certification in all aspects of canine behavior, along 
with handling, training, and employing a passive indication detection 
canine, as well as canine policy, case law, and canine first-aid. Both 
the officer and the canine are taught proper search sequences when 
searching pedestrians, private and commercial conveyances, freight, 
luggage, mail, open areas of land and structures. Only a few days ago, 
on May 2, 2017, a canine team in the El Centro Sector aided in the 
detection and seizure of $18,000 in currency, as well as narcotics 
valued at more than $1.3 million, including 20.6 pounds of heroin, and 
20.1 lbs. of methamphetamine in a single event.\2\
---------------------------------------------------------------------------
    \2\ Cash--$18,000; Heroin (20.6 lbs)--$659,200; Meth (20.1 lbs)--
$643,200; Total Narcotics value $1,320,400.
---------------------------------------------------------------------------
Canine Instructor
    The CBP Canine Training Program trains experienced agents/officers 
to function as canine instructors in each of the varied disciplines for 
their respective components. This consists of extensive academic and 
practical training on canine methodology and the theory of problem 
solving. The instructor develops the canines and handlers to function 
as a team from the initial point of training through to certification 
and graduation. Upon completion of training, instructors return to 
their respective stations/ports to provide policy mandated maintenance 
training, as well as exercises designed to enhance skill and 
performance levels for all certified teams. In addition, the instructor 
cadre provides insight and guidance to administrative staff and serves 
as subject-matter experts on canine training, canine handling, canine 
deployment, and canine program-related courtroom testimony.
    Operational canine instructors are tasked with the team's 
development throughout their tour within the canine unit. USBP 
currently has 304 canine instructors who train, enhance, and certify 
its 856 operational canine teams, providing a 1:3 ratio of instructors 
to handlers. USBP has determined that this instructor/handler ratio 
helps canine instructors better address complex subjects such as the 
operant \3\ conditioning principles and various problem solving issues 
that the most advanced level canine training entails.
---------------------------------------------------------------------------
    \3\ Operant conditioning is a type of learning where behavior is 
controlled by consequences, such as rewarding good behavior (positive 
reinforcement).
---------------------------------------------------------------------------
                        cbp agriculture canines
    In 2003, when USDA transferred Plant Protection and Quarantine 
Officers to CBP, approximately 74 canine teams were included. Today, 
about 106 CBP agriculture canine teams provide screening at the border 
crossings, preclearance locations, air passenger terminals, cruise 
terminals, cargo warehouses, and mail facilities that process 
international passengers and commodities. All CBP agriculture 
specialist canine handlers and their canine partners complete the 
initial 10-13 week CBP Agriculture Specialist Canine Training at the 
USDA National Detector Dog Training Center (NDDTC). All the detector 
dogs at the NDDTC are adopted from rescue shelters in the United States 
or come to the program from private donations.
    During a single week this month Murray, an agricultural canine and 
new addition to CBP, alerted to and helped intercepted more than 46 
pounds of exotic fruit, peppers, and beef found in checked bags at the 
Hartsfield-Jackson Atlanta International Airport. The seized food 
products--including potatoes, chili peppers, tomatoes, banana passion 
fruits, yellow Dragon fruits, and beef--were destroyed and the 
travelers were not penalized as they declared the agriculture products 
to CBP. Prohibited food items, invasive weed seeds and insects, and 
plant and animal diseases pose a significant threat to U.S. 
agricultural industries and our Nation's economy. On a typical day in 
fiscal year 2016, CBP agriculture specialists discovered 404 pests at 
U.S. POEs and 4,638 materials for quarantine, helping keep our Nation 
and our economy safe.
                    cbp canine program partnerships
    CBP's Office of International Affairs (INA) Technical Assistance 
Division (INA/ITAD) conducts International Border Interdiction 
training, funded by Department of State, for various countries world-
wide. These courses provide instruction on multiple aspects of border 
security, including targeting and risk management, interdiction, 
smuggling, search methodologies, analysis, canine enforcement, and 
narcotics detection identification. INA/ITAD has conducted anti-
smuggling training in heroin and opiate source countries such as 
Panama, Guatemala, Colombia, Ecuador, Peru, Mexico, Indonesia, India, 
Thailand, Afghanistan, Kenya, Cambodia, and the Philippines.
    In 2015, at the request of the Government of Tanzania, the previous 
CBP Commissioner, and U.S. Ambassador to Tanzania, the CBP Canine 
Training Program conducted an initial assessment of the Government of 
Tanzania's capabilities with detection canines and canine training. The 
need and suitability of a start-up ivory and narcotic canine detection 
program to counter illegal wildlife and narcotics trafficking was 
identified. Immediately following the assessment, the CBP Canine 
Training Program developed a customized curriculum, with ivory as a 
newly-trained odor, and were able to train four Tanzanian police 
officers who are posted at the Dar es Salaam Seaport and Airport. This 
entire effort was accomplished in approximately 5 months and led to one 
ivory trafficking arrest and narcotics seizure.
    OTD is also active in sharing expertise in the United States. In 
2016, the CBP Canine Training Program provided canine handler and 
instructor training for the Warren County Sheriff's Department; El Paso 
County Sheriff's Office; the National Park Service; Shelby County 
Sheriff's Office; Ysleta Del Sur Pueblo Tribal Police Department; 
Washington State Police; New Mexico State Police; and the Pennsylvania 
Department of Corrections.
        tsa's national explosives detection canine team program
    TSA procures, trains, and deploys explosives detection canine teams 
to secure our Nation's transportation systems through visible 
deterrence and timely, mobile operations that support airports, mass 
transit, and other transportation facilities across the country. TSA's 
National Explosives Detection Canine Team Program (NEDCTP) began as the 
Federal Aviation Administration's Explosives Detection Canine Program 
in 1972 and transferred to TSA in 2002. Congress has recognized the 
value of TSA's NEDCTP through its continued support and funding, 
including through increased funding in fiscal year 2017 appropriations. 
TSA's NEDCTP is currently the largest explosives detection canine 
program in DHS, and the second-largest in the Federal Government, with 
1,047 funded National Explosives Detection Canine teams currently 
stationed at more than 100 of the Nation's transportation venues. The 
success of TSA's NEDCTP is a prime example of Federal, State, and local 
governmental entities working together with a common goal--to protect 
the American people and secure transportation.
    Given the security effectiveness of high-quality explosive 
detection canines, TSA partners with the Department of Defense (DOD) as 
well as private industry to ensure a reliable and adequate supply of 
canines. TSA partners with DOD's Military Working Dog Program to 
procure up to 280 canines per year. In addition to our work with DOD, 
TSA has contracts with several domestic vendors for suitable trained 
and untrained passenger screening canines. To support on-going 
expansion of TSA's canine program, TSA has made significant investments 
in infrastructure at the Canine Training Center (CTC). These 
investments have enabled TSA to increase throughput by 20 percent from 
fiscal year 2016 to fiscal year 2017, including new teams for growth 
and attrition replacement.
    Once TSA procures a canine, TSA pairs it with a Federal, State, or 
local handler to be trained to operate in the aviation, maritime, mass 
transit, or cargo environments. The majority of canine teams working in 
the aviation environment today are comprised of a canine and a State or 
local law enforcement officer. For these teams, TSA provides and trains 
the dog, trains the handler, provides training aids and explosive 
storage magazines, and conducts on-site canine team training and re-
certifications. TSA partially reimburses each participating agency for 
operational costs associated with maintaining the teams, including 
veterinarians' fees, handlers' salaries, dog food, and equipment. In 
return, the law enforcement agencies agree to use the canines in their 
assigned transportation environment for at least 80 percent of the 
handler's duty time. State and local law enforcement participation in 
the program is voluntary, and these organizations play a critical role 
in TSA's mission to ensure the safe movement of commerce and people 
throughout the Nation's transportation security environment.
    In addition to State and local law enforcement-led teams, TSA 
handlers lead 372 funded canine teams, including Passenger Screening 
Canine (PSC) teams, which are specifically trained to detect 
explosives' odor on passengers and property as they traverse the 
terminal, in addition to their conventional explosives detection role. 
This number includes fifty new teams that were funded by Congress in 
fiscal year 2017 appropriations.
    TSA and State and local law enforcement handlers travel from across 
the country to TSA's CTC, located at Joint Base San Antonio-Lackland, 
to be paired with a canine and complete a 10-12 week training course. 
The canine teams learn explosives detection in an intense training 
environment, using 17 venues located on the CTC premises that mimic a 
variety of transportationsites such as a cargo facility, airport gate, 
passenger screening checkpoint, baggage claim area, aircraft interior, 
vehicle parking lot, light rail station, light rail car, and air cargo 
facility, among others. Teams are trained to detect a variety of 
explosives based on intelligence data and emerging threats.
    Once a team graduates from the training program, they return to 
their duty station to acclimate and familiarize the canine to their 
assigned operational environment. Approximately 30 days after 
graduation, an Operational Transition Assessment (OTA) is conducted to 
ensure each team demonstrates operational proficiency in their 
environment. OTAs include four key elements: The canine's ability to 
recognize explosives' odors, the handler's ability to interpret the 
canine's change of behavior, the handler's ability to conduct logical 
and systematic searches, and the team's ability to locate the 
explosives' odor source. Upon successful completion of the OTA, NEDCTP 
canine teams are then evaluated on an annual basis under the most 
stringent of applicable certification standards.
    TSA allocates canine teams to specific cities and airports 
utilizing risk-based criteria that take into account multiple factors, 
including threat, passenger volume and throughput, and number of 
insiders with access to secure areas of the airport. PSC teams are 
critical to TSA's risk-based security efforts and are deployed to 
operate during peak travel times at 42 of the Nation's largest 
airports, where they have the opportunity to screen tens of thousands 
of passengers every day. PSC teams are trained to conduct traditional 
screening of objects such as luggage, cargo, and vehicles, and are an 
especially flexible security option. The additional teams, recently 
funded by Congress, will expand our ability to respond to 
transportation plots whether they target public areas, passenger 
screening checkpoints, or leverage an insider with access to the secure 
area.
    In addition to deployments at passenger screening checkpoints, TSA 
and law enforcement-led teams conduct a variety of search and high-
visibility activities that address potential threats throughout the 
transportation domain. For example, canine teams provide visible 
deterrence and conduct explosives detection operations in 
transportation system public areas, and also conduct operations that 
mitigate insider threats in secured areas.
    Canine teams have been proven to be one of the most effective means 
of detecting explosive substances. They are critical to TSA's focus on 
security.
                     s&t's detection canine program
    S&T's Detection Canine Program has historically focused on specific 
explosives threats facing the homeland and how we can better understand 
the strengths and limitations of the specially-trained explosive 
detection canine. As a result, we can then inform our partners on how 
to best utilize this extremely capable detector in a comprehensive 
concept of operations. S&T maintains open lines of interaction with CBP 
and FEMA to address challenges with narcotics detection, human 
tracking, and urban search and rescue. In 2017, the scope of the 
detection canine program at S&T officially expanded to an all-threats 
focus.
    The S&T canine program has three specific focus areas:
  <bullet> Development and testing of canine training aids.--Primary 
        focus has been on (1) low-cost, non-hazardous training aids 
        that can be used to improve and test canine ability to detect 
        new threats and (2) a laboratory instrumentation method to 
        measure the training aid at or below the level of the detection 
        of the canine.
  <bullet> Canine operational testing and evaluation.--Provide an 
        expert independent operational test and evaluation capability 
        for detection canines, discover canine strengths and weaknesses 
        by performing in-field assessments, and use a scientifically 
        rigorous approach with statistically significant results to 
        enhance and validate testing methods.
  <bullet> Canine research and development structure and function.--
        Focus on more basic understanding of canine behavior, genetics, 
        olfaction, and cognition of this detector to improve 
        operational efficiencies and training methods.
    S&T's PBIED canine initiative was started in 2012 to understand the 
strengths and limits of canines specially trained to detect PBIEDs 
being carried by people, either on their person or in bags, in mass 
transit and large crowd event operational environments. S&T is the 
first to conduct this type of parametric study and testing, which is 
critical to scientifically determine the limits of performance.
    In 2017, the Detection Canine Program transitioned a patented non-
hazardous peroxide-based training aid for operational use by the TSA 
canine program. This training aid addresses the threat used in Brussels 
and Paris and allows for use in operational scenarios including 
vehicle, baggage, and person-based threats. This aid is in use by all 
TSA canine teams at over 100 airports Nation-wide. The aid is also 
licensed for commercial production and sale to over 4,000 domestic 
explosive detection canine teams in the law enforcement community.
    S&T has established critical enduring capabilities to facilitate 
rapid response to emerging threats. Coupling partnerships with National 
Capital Region detection canine teams and world-renowned laboratory 
analysis capabilities has allowed an integrated approach to our test 
and evaluation focus. S&T's contributions to the Homeland Security 
Enterprise include understanding of both the inherent capacity for the 
canine to detect a new threat and how to establish proficiency where 
needed. S&T, supporting DHS and interagency partners, has contributed 
rapid determinations of the canine detection capability on many 
threats.
    S&T has established strong international partnerships for 
explosives detection canine use that have significantly impacted our 
international air cargo policy. In 2015, at the request of TSA, S&T 
conducted extensive assessments of the use of Remote Explosive Scent 
Tracing (REST) methodologies--which involves detection canines 
inspecting vapor samples on special filters--in the United Kingdom 
(U.K.), France and the Netherlands to determine if the screening method 
met or exceeded TSA standards for explosives screening. Following S&T's 
work, the TSA administrator authorized in-coming air cargo from Dutch 
and French airports that use REST. Additionally, S&T identified 
improvements that could be made to the United Kingdom's methodology. 
This input informed the United Kingdom to re-evaluate their 
certification methods and improve their screening methodology for 
detection of explosive materials in air cargo.
    This year, S&T's detection canine program launched the Regional 
Explosives Detection Dog Initiative (REDDI) in support of the State and 
local law enforcement canine community. This extends outreach for our 
program to the State and local community to create better partnerships 
and validate capability gaps. REDDI events aim at advancing the 
knowledge and capability of our Nation's explosive detection canine 
teams. S&T will provide a series of regionally-based events for 
detection canine teams in the law enforcement community, including odor 
recognition trials, reality-based operational search scenarios, odor 
exercises and demonstrations, shared knowledge on IEDs emphasizing 
homemade explosives, and an overview on explosive odor chemistry. The 
first REDDI event was held in southwest Florida in March 2017, with a 
second event in Connecticut in April 2017. Several events are planned 
throughout the country in the coming months. Alongside canine teams 
gaining valuable experience and an independent evaluation of their 
operational readiness, S&T gathers valuable data to validate current 
program priorities, guide future investments, and increase the 
knowledge base to share with the whole detection canine community.
    S&T has already begun to expand into other mission areas with 
potential to benefit from canine detection:
  <bullet> S&T has a Memorandum of Agreement with FEMA to address some 
        of the challenges of urban search and rescue teams. S&T is in 
        the second phase of development of a canine-wearable vest that 
        will provide fully stabilized video, high-fidelity location in 
        GPS-denied situations, and communications from canine to 
        handler to command center. This effort is executing through 
        S&T's Small Business Innovative Research Program.
  <bullet> The canine program is also one of the first participants in 
        S&T's Silicon Valley Initiative Program, through which the 
        Department reaches out to non-traditional performers and those 
        who have not previously contracted with the Government to 
        address DHS research and development needs.
  <bullet> S&T has an active effort with CBP to identify canine-
        wearable technologies that monitor health of the canine while 
        being ruggedized to survive the environments where they train 
        and deploy.
    The Detection Canine Program is a prime example of how S&T helps 
operators and end-users in the Homeland Security Enterprise harness 
science and technology to more effectively and efficiently achieve 
their missions. The program has been enormously successful building a 
detection canine community and using that community to develop and 
transition powerful new capabilities to operators.
                               conclusion
    DHS's canine teams offer unique capabilities across various 
disciplines and can be deployed throughout diverse operating 
environments, and will continue to consistently adapt to meet the DHS 
mission while providing a more mobile and rapid response in order to 
lead the way into the future. Thank you for the opportunity to discuss 
this important program with you today.

    Mr. Perry. We will move on here. Due to votes on the House 
floor, the subcommittee will stand in recess subject to the 
call of the Chair. The subcommittee will reconvene following 
the vote series.
    [Recess.]
    Mr. Perry. The subcommittee will come to order. We will get 
back on script here. All right. The Chair recognizes himself 
for an opening statement.
    As we welcome law enforcement officers from across our 
Nation to Washington, DC, to commemorate National Police Week 
we would be remiss not to thank the unsung hero partners of 
many of our forces, canines.
    Earlier this month near an immigration checkpoint in 
Tucson, Arizona a U.S. citizen was arrested for narcotics 
smuggling after a Border Patrol canine unit detected an odor 
emitting from a hearse which produced over $33,000 worth of 
marijuana concealed within a casket.
    After the Twin Towers fell on 9/11 hundreds of talented 
canine teams were integral to search and rescue attempts, 
searching through 16 acres of rubble where the World Trade 
Center once stood to find tragic remains or those lucky enough 
still to be alive.
    TSA's canine teams screen approximately 26 million 
passengers in fiscal year 2016 and responded to 35,000 
unattended items within the transportation system in 2016 to 
ensure no explosives were present and mitigate the impact of 
shutdowns and evacuations.
    Finally, in October 2016 Customs and Border Protection 
employees at JFK Airport said a happy farewell to retiring 
Jasper, a CBP Agriculture Canine credited with over 17,000 
seizures and over 23,000 interceptions.
    Jasper thwarted smugglers' attempts to sneak everything and 
anything past customs from illegal whale meat to live turtles.
    These are just a few examples of many ways canines 
contribute to the safety and security of our homeland. DHS 
maintains robust canine programs with teams ranging from patrol 
units with the U.S. Secret Service, explosive detection units 
with the Coast Guard and TSA, and urban search and rescue units 
within FEMA.
    CBP alone has approximately 1,500 canine teams, the largest 
overall canine program at DHS with distinct mission sets 
including but not limited to, tactical operations along the 
border, detection of narcotics, firearms, undeclared currency 
and concealed persons attempting illegal entry into the United 
States, and detection of undeclared agricultural products with 
the potential to wreak havoc on U.S. agricultural resources.
    In total, six operational components use canines, CBP and 
Border Patrol, the TSA, the Coast Guard, the Secret Service, 
the Federal Protective Service of the National Protection and 
Programs Directorate, and FEMA.
    Additionally, the Science and Technology or S&T Directorate 
provides on-going research and support to canine explosive 
detection skills training.
    For example, just recently S&T announced a grant of 
$198,000 for a wearable device on CBP canines that provide 
real-time monitoring of the dog's vital signs while operating 
in the field.
    With the highest threat environment since 9/11, our law 
enforcement personnel must have the tools they need to keep 
Americans safe. A dog's sense of smell is vastly more sensitive 
and acute than a human's and their detection abilities are 
unrivaled.
    As terrorists seek to exploit any vulnerability in our 
security the Department's use of canines is that much more 
important.
    For example, as we have seen in recent attacks at the 
Brussels Zaventem Airport and Istanbul Ataturk Airport aviation 
systems remain a large target. As terrorists' capabilities 
become more sophisticated with abilities to circumvent our 
technological systems a canine's nose may be our last line of 
defense.
    Canine contributions to the security of our Nation are vast 
along our borders, at our ports of entry, in our airports and 
beyond. I look forward to hearing from our witnesses today on 
the important contributions of the Department's impressive, 
broad use of canines.
    I want to just thank you, too, as individuals that 
sacrifice a portion of your life to deal with the dogs. The 
dogs don't come alone, right? So we appreciate that as well. 
Look, we are really, really thrilled to have you hear.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                              May 18, 2017
    As we welcome law enforcement officers from across our Nation to 
Washington, DC to commemorate National Police Week, we'd be remiss not 
to thank the unsung hero partners of many of our forces: Canines.
    Earlier this month, near an immigration checkpoint in Tucson, 
Arizona, a U.S. citizen was arrested for narcotics smuggling after a 
Border Patrol canine unit detected an odor emitting from a hearse, 
which produced over $33,000 worth of marijuana concealed within a 
casket.
    After the Twin Towers fell on 9/11, hundreds of talented canine 
teams were integral to search and rescue attempts, searching through 16 
acres of rubble where the World Trade Center once stood, to find tragic 
remains, or those lucky enough still to be alive.
    TSA's canine teams screened approximately 26 million passengers in 
fiscal year 2016, and responded to 35,000 unattended items within the 
transportation system in 2016, to ensure no explosives were present and 
mitigate the impact of shutdowns and evacuations.
    And finally, in October 2016, Customs and Border Protection (CBP) 
employees at JFK Airport said a happy farewell to retiring Jasper, a 
CBP agriculture canine credited with over 17,000 seizures and over 
23,000 interceptions. Jasper thwarted smuggler's attempts to sneak 
everything and anything past customs--from illegal whale meat to live 
turtles.
    These are just a few examples of the many ways canines contribute 
to the safety and security of our homeland.
    DHS maintains robust canine programs with teams ranging from patrol 
units with the U.S. Secret Service, explosive detection units with the 
Coast Guard and TSA, and Urban Search and Rescue units with FEMA. CBP 
alone has approximately 1,500 canine teams--the largest overall canine 
program at DHS, with distinct mission sets including, but not limited 
to: Tactical operations along the border, detection of narcotics, 
firearms, undeclared currency, and concealed persons attempting illegal 
entry into the United States, and detection of undeclared agricultural 
products with the potential to wreak havoc on U.S. agricultural 
resources.
    In total, six operational components use canines--CBP and Border 
Patrol, the TSA, the Coast Guard, the Secret Service, the Federal 
Protective Service of the National Protection and Programs Directorate, 
and FEMA. Additionally, the Science and Technology (S&T) Directorate 
provides on-going research and support to canine explosives detection 
skills training. For example, just recently, S&T announced a grant of 
$198,000 for a wearable device on CBP canines that provide real-time 
monitoring of the dogs' vital signs while operating in the field.
    With the highest threat environment since 9/11, our law enforcement 
personnel must have the tools they need to keep Americans safe. A dog's 
sense of smell is vastly more sensitive and acute than a human's, and 
their detection abilities are unrivaled. As terrorists seek to exploit 
any vulnerability in our security, the Department's use of canines is 
that much more important. For example, as we've seen in recent attacks 
at the Brussels Zaventem Airport and Istanbul Ataturk Airport, aviation 
systems remain a large target. And as terrorists' capabilities become 
more sophisticated with abilities to circumvent our technology systems, 
a canine's nose may be our last line of defense.
    Canine contributions to the security of our Nation are vast--along 
our borders, at our ports of entry, in our airports, and beyond. I look 
forward to hearing from our witnesses today on the important 
contributions of the Department's impressive and broad use of canines.

    Mr. Perry. With that, the Chair now recognizes the Ranking 
Minority Member of the subcommittee, the gentleman from 
California, Mr. Correa for his statement.
    Mr. Correa. Chairman Perry, thank you very much for holding 
today's hearing.
    I want to thank all of our guests today, witnesses, and of 
course those wonderful canines for being here today. I look 
forward to discussing with each and every one of you the 
Department of Homeland Security's canine programs, a tool used 
every day to assist DHS in keeping our Nation safe.
    While most of us, of course, as citizens love those little 
four-legged animals, I think most of us in our society are not 
aware, totally aware, of their specialized skills. Several DHS 
components including FEMA, TSA, and CBP acquire and train 
canines to assist us in various DHS missions.
    From helping secure our borders, to offering aid during 
natural disasters by locating victims, the importance of the 
work of the various DHS canine programs cannot be overstated. 
All of us know a dog can smell 10 times better--10,000 better 
than a human being and they can also detect over 19,000 odors 
associated with explosives. Tremendous, tremendous potential, 
tremendous skills.
    I look forward to hearing today about the research and 
development conducted by the Science and Technology Directorate 
to assist DHS, its components, in explosive detection. I also 
look forward to hearing about the use of new low-cost non-
hazardous canine training aids which are of particular interest 
to me.
    I understand that we will be seeing, and we did see, some 
demonstrations earlier today.
    I also welcome testimony from CBP which possesses the 
largest and most diverse law enforcement law enforcement canine 
program in the country. I understand that just a few months ago 
CBP canines in Arizona were credited with the recovery of 
$400,000 worth of cocaine and heroin, meth along the border 
during three separate vehicle inspections in a 24-hour time 
period.
    Despite the tremendous work of these canines I understand 
there is a shortage at ports of entry. I look forward to 
discussing what, if any, additional resources you all need to 
assure that those canine teams that we need are actually there 
to secure our country.
    I also look forward to hearing about the important work of 
the TSA National Explosive Detection Canine Program which is 
currently the largest explosive detection canine program at 
DHS.
    TSA has received continuous support from Congress. Because 
of its importance for securing our Nation, mass transit, cargo, 
and other areas.
    With that being said, I am concerned that the 
administration for its fiscal year 2018 is proposing a cut to 
the TSA Visible Intermodal Prevention and Response or VIPR, 
viper, Operation, that specializes in detecting suspicious 
activities at airports using canines.
    I am hoping that your testimony today will further address 
the issues of the importance of fully funding your program as 
opposed to funding a border wall.
    A few weeks ago I was at San Ysidro, San Ysidro Crossing. I 
took a tour. The agents were telling me that most of the 
contraband coming into this country is actually--comes across 
in automobiles.
    Most of the smuggling happens in cars and other vehicles 
and that it is actually stated that a lot of the dogs that were 
being used as the canines were important, very key to detecting 
a lot of this contraband.
    So I am hoping again that your testimony can focus on these 
issues. How can you do your job better? What resources we as 
policy makers can present to you that you can continue to keep 
our country safe?
    I, again, thank all the witnesses for being here today. 
Thank you for your testimony. With that, Mr. Chairman, I yield 
my time, the balance of my time back to you, sir.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                              May 18, 2017
    I look forward to discussing with each of you the Department of 
Homeland Security's canine programs--a tool used every day to assist 
DHS in its mission to secure the Nation.
    While most of us are very familiar with the benefits of having a 
``four-legged friend'' as a pet, many people are simply unaware of the 
incredibly specialized skill set the canines of DHS possess.
    Several DHS components, including FEMA, TSA, and CBP, acquire and 
train canines to assist in various DHS missions--from helping secure 
our borders by detecting concealed humans and controlled substances to 
offering aid during a natural disaster by locating victims.
    The importance of the work of the various DHS canine programs 
cannot be overstated.
    For example, a dog can smell about 10,000 times better than a 
human, making canines an invaluable asset in detecting the over 19,000 
odors associated with explosives.
    Consequently, it is easy to understand why canines are considered 
the most mobile and effective explosives detection tool available.
    I look forward to hearing today about research and development 
conducted by the Science & Technology Directorate to assist DHS 
components in explosive detection.
    The use of a new low-cost, non-hazardous canine training aid is of 
particular interest, and I understand we will be seeing a demonstration 
of that training aid this afternoon.
    I also welcome testimony from CBP, which possesses the largest and 
most diverse law enforcement canine program in the country.
    Just a few months ago, CBP canines in Arizona were credited with 
the recovery of $400,000 worth of heroin and methamphetamine along the 
border during three separate vehicle inspections in a 24-hour time 
period.
    Despite this incredible work, it is my understanding that there is 
a shortage of canine teams at the ports of entry.
    I look forward to discussing what, if any, additional resources are 
needed to ensure CBP canine teams are fully staffed with both handlers 
and dogs.
    I also look forward to hearing about the important work of the TSA 
National Explosives Detection Canine Team Program, which is currently 
the largest explosives detection canine program at DHS and the second-
largest in the Federal Government.
    The TSA program has received continuous support from Congress 
because of the importance of securing the Nation's airport, mass 
transit, and cargo environments.
    I am troubled that despite support from Congress each year, 
including the addition of 50 TSA canine teams in fiscal year 2017, 
President Trump's fiscal year 2018 budget proposes cuts to the TSA 
Visible Intermodal Prevention and Response, or VIPR operation that 
specializes in detecting suspicious activity at airports using canines.
    I hope our TSA witness will be able explain how these cuts would 
impact TSA canine operations across the country.
    Proposing to cut proven programs at TSA, along with FEMA, to help 
pay for a multi-billion-dollar boondoggle of a border wall is not sound 
homeland security policy.
    It is imperative that DHS considers the important work of its 
canine programs and how future homeland security priorities and 
missions may be affected if they fail to receive the resources they 
need.

    Mr. Perry. The Chair thanks the gentleman.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record. The Chair asks 
unanimous consent for the gentleman from Alabama, Mr. Rogers, 
when and if he arrives, and Mr. Palmer to be permitted to sit 
on the dais to participate in today's hearing.
    Without objection, so ordered.
    We were privileged to hear from Mr. Montes. We thank him 
for his statement. We are now going to move to Mr. Jaquez. The 
Chair now recognizes you for your statement.

STATEMENT OF PETER JAQUEZ, ACTING DEPUTY CHIEF, LAW ENFORCEMENT 
   OPERATIONS--SPECIALTY PROGRAMS, U.S. BORDER PATROL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jaquez. Good afternoon, Chairman Perry, Ranking Member 
Correa, and distinguished Members of the subcommittee. Thank 
you for the opportunity to testify today about the United 
States Border Patrol Canine Program.
    The USBP Canine Program has been a cornerstone in Border 
Patrol operations since our first four canine handlers 
graduated in 1987, 30 years ago, last month.
    Today, our canine teams are central to our operational 
strategy, providing a specialized capability to conduct 
targeted enforcement operations to disrupt the flow, smuggle 
humans and narcotics, and deny profits to transnational 
criminal organizations.
    At the end of fiscal year 2016 the USBP Canine Program had 
a total of 832 active canine teams which are trained, 
maintained, and enhanced by 295 USBP canine instructors. We 
assign canine teams to USBP sectors based upon their individual 
operational requirements.
    The operational needs of various checkpoints, line watches, 
transportation checks, and parcel facilities are some of the 
factors considered when identifying the number of canines 
needed for any particular sector.
    One of the significant operational contributions of our 
canine teams lies in their capability to detect concealed 
humans. This capability is valued for several reasons. 
Detecting a concealed human may result in the apprehension and 
arrest of a person illegally present in the United States, a 
wanted criminal, a terrorist, or the detection of concealed 
humans who may be in danger because they are concealed within a 
conveyance in unsafe conditions.
    During fiscal year 2016 USBP canine teams were responsible 
for over 41,000 human apprehensions. Not all of these 
apprehensions occurred at our checkpoints. Canines are also a 
valuable tool in the field deployment.
    Another mission of the USBP canine team is the detection of 
narcotics. During fiscal year 2016 our canine team seized over 
419,000 pounds of narcotics and more than $5.9 million in 
currency.
    Only a couple weeks ago on May 2, a canine team in El 
Centro Sector aided the detection and seizure of narcotics 
valued at more than $1.3 million, included 20.6 pounds of 
heroin, 20.1 pounds of methamphetamine, and $18,000 in currency 
all in one single event.
    No monetary value can be placed on saving human lives, 
another task USBP canine teams have to do. During fiscal year 
2016 USBP search and rescue canines rescued 15 individuals. 
During one notable rescue El Centro Sector received a request 
from Imperial County Sherriff's Office to respond to a 9-1-1 
call.
    An El Centro Sector canine team responded and while walking 
into the area the canine located four subjects in distress. All 
four subjects were provided medical treatment and turned over 
to agents for disposition and processing.
    USBP canine teams are also used in the search for specific 
individuals. For example, USBP tracking/trailing canine teams 
assisted in the manhunt for murder suspect Matthew Eric Frein 
in September 2014 at the request of the Pennsylvania State 
Police.
    Over the course of 7 weeks over 100 BORTAC and BORSTAR 
intel personnel were deployed to Pennsylvania including 
mission-essential gear and equipment in search of the fugitive. 
Frein was successfully apprehended on October 30, 2014 without 
further incident.
    In conclusion, I am honored to be a part of the U.S. Border 
Patrol Canine Program and appreciate the opportunity to share 
our efforts with you today. I am happy to answer any questions 
you may have.
    Mr. Perry. Thank you, Mr. Jaquez.
    The Chair recognizes Ms. Harvey for her opening statement.

   STATEMENT OF MELANIE HARVEY, DIRECTOR, THREAT ASSESSMENT 
    DIVISION, TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Harvey. Thank you. Good afternoon, Chairman Perry, 
Ranking Member Correa, and Members of the subcommittee. Thank 
you for the opportunity to testify today.
    TSA's National Explosive Detection Canine Team Program is 
funded to train and deploy 1,047 canine teams. Our teams 
operate in nearly every State in the country and are allocated 
to 82 airports and 33 mass transit and surface systems.
    TSA's Canine Program began under the Federal Aviation 
Administration in 1972 after a TWA flight from JFK to LAX 
received an anonymous bomb threat. The aircraft returned to JFK 
where passengers were evacuated and a bomb-sniffing dog named 
Brandy from the New York City Police Department identified the 
explosive device minutes before it was set to detonate.
    This success led to the creation of the FAA's initial 
canine program of 40 canine teams at 20 airports. The program 
transferred to TSA in 2002 and has expanded over time to 
include more teams and broader capabilities, such as passenger 
screening.
    Many of the teams working in the aviation environment are 
comprised of a TSA canine and a law enforcement handler from a 
State or local agency. For these teams, TSA provides and trains 
the dog, trains the handler, provides training aids and 
storage, and conducts annual team certifications.
    TSA provides each participating agency a small stipend to 
reimburse some operational costs. In return, the agencies agree 
to deploy the teams in their assigned transportation 
environment at least 80 percent of the time and to respond to 
threats in 45 minutes, 24 hours a day, 7 days a week.
    Participation in the program is voluntary and these 
agreements are a great example of Federal, State, and local 
partners working together to protect people and secure 
transportation. In addition to the law enforcement teams, 372 
of TSA's Federal employees are also canine handlers.
    Nearly 50 percent are veterans, such as Mr. Timberlake, who 
you met earlier, who is a veteran of the United States Army.
    In addition to traditional explosive detection work, TSA-
led teams are trained to search people and their accessible 
property as they move through terminals and checkpoints. The 
passenger screening canine, or PSC, methodology is complex and 
operationally demanding.
    The handlers must observe the canine and passengers while 
recognizing subtle changes in behavior of their canine. TSA 
teams work primarily during peak travel times in airport 
screening checkpoints where they have the opportunity to screen 
the highest volume of people and property.
    All handlers in TSA's program are trained at TSA's Canine 
Training Center co-located with DoD's Military Working Dog 
Program at Joint Base San Antonio--Lackland.
    Teams are trained in explosive and search methods across 17 
transportation venues including a passenger screening 
checkpoint, a baggage claim area, wide- and narrow-body 
aircraft, and light rail cars and stations.
    This year, TSA will train approximately 300 canines and 
teams and conduct nearly 900 annual re-certifications of 
deployed canine teams. TSA also provides explosive detection 
canines and training support to our DHS partners in the United 
States Coast Guard and Federal Protective Service.
    DHS Science and Technology is another critical partner of 
TSA's canine program, enabling us to bridge the gap between 
science and the real world. Within the past year DHS S&T's 
Detection Canine Program developed and delivered safe training 
aids that enhance our team's ability to find homemade 
explosives.
    They routinely conduct operational testing and recommend 
actionable improvements that strengthen the team's overall 
effectiveness. This week at an airport in North Carolina S&T 
chemists and canine experts are working alongside our handlers 
to understand the canine's ability to detect a particular 
threat.
    On any given day, TSA's canine program has 800 canine teams 
on duty and 115 airports and surface transportation systems. 
They respond to 109 calls for unattended items or vehicles, 
avoiding evacuation in most cases, and our teams screen 120 to 
130,000 passengers at airport checkpoints.
    The canine teams are a critical layer of TSA's security 
system.
    Thank you for the opportunity to talk to you about TSA's 
canine program. I look forward to any questions.
    Mr. Perry. Thank you, Ms. Harvey.
    The Chair now recognizes Dr. Carrick for his opening 
statement.

   STATEMENT OF PATRICK CARRICK, DIRECTOR, HOMELAND SECURITY 
   ADVANCED RESEARCH PROJECTS AGENCY SCIENCE AND TECHNOLOGY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Carrick. Good afternoon, Chairman Perry, Ranking Member 
Correa, and Members of the subcommittee.
    It is an honor to come before the subcommittee today to 
offer my testimony on critical canine contributions that the 
Science and Technology Directorate has made in support of the 
Homeland Security mission.
    Detection canines are the best and most versatile mobile 
detection tool that we have today to protect the homeland. Our 
mission is to provide the homeland security enterprise with the 
tools, techniques, and knowledge to better understand, train, 
and utilize these canines to detect hazards.
    We work with the DHS partners represented here as well as 
FEMA, other Federal agencies, State, and State and local law 
enforcement to provide central focal point for DHS canine 
research and development.
    Our detection canine efforts have historically addressed 
the challenges of facing explosives threat to the homeland, 
focusing on how we can better understand and utilize the 
strengths and limitations of these specially-trained canines.
    This year the Canine Detection Program successfully 
transitioned a patented non-hazardous peroxide-based training 
aid for operational use by the TSA Canine Program. Unlike 
narcotics where the actual materials can be used for training, 
peroxide-based explosives can be somewhat unstable, making the 
need for a safe training aid crucial.
    This training aid addresses the threat used in Brussels and 
Paris and allows for safe use and operational scenarios such as 
on vehicles, baggage, and on person. This training aid has been 
distributed to all TSA canine teams at over 100 airports 
Nation-wide and has been licensed for commercial production and 
sale to over 4,000 domestic explosive detection canine teams in 
the law enforcement community.
    We have identified a National challenge. Many of our 
Nation's explosive detection canine teams have limited access 
to the latest knowledge on explosive threat odors. As a result 
this year our detection canine program has launched the 
Regional Explosives Detection Dog Initiative or REDI for short, 
to provide a series of regionally-based events for law 
enforcement detection canine teams.
    While the canine teams get valuable experience and an 
independent look at how they are doing, the S&T Team gleans 
important perspective on the need for future R&D investments 
and insight into canine detection operational readiness.
    The first REDI event was held in Southwest Florida in March 
with a second event in Connecticut in April. Several more 
events are being planned throughout the country in the coming 
months, including an event in Miami next week.
    We have also an initiative with several partner law 
enforcement agencies in the National capital region to 
understand the possibilities and the limitations of using 
detection dogs to find person-borne improvised explosive 
devices in mass transit rail and large crowd event venues.
    This year the scope of the detection canine program was 
officially expanded to focus on all threats including 
challenges with narcotics detection, human tracking, and urban 
search and rescue.
    We established an agreement with FEMA to begin addressing 
some of the challenges of the urban search and rescue teams. We 
are in the second phase also of a development of a low-profile 
canine wearable vest to provide canine teams with a fully 
stabilized video, high-fidelity, location GPS denied 
situations, and communications from canine to the handler to 
the commander.
    This effort is being executed through S&T's Small Business 
Innovative Research Program. We also have an active effort 
working with CBP to identify canine wearable and ruggedized 
technologies that can monitor canine health signs while the 
canine is working in harsh environments.
    This concludes my testimony and I look forward to the 
opportunity to address any of your concerns and questions.
    Mr. Perry. Thank you, Dr. Carrick.
    The Chair now recognizes Dr. Brown for an opening 
statement.

STATEMENT OF JENNIFER BROWN, CANINE SEARCH SPECIALIST AND TEAM 
   VETERINARIAN, URBAN SEARCH AND RESCUE--FLORIDA TASK FORCE

    Ms. Brown. Thank you, Chairman Perry, Ranking Member 
Correa, and the Members of the subcommittee. Thank you 
tremendously for allowing me to testify today on behalf of our 
Urban Search and Rescue Canines.
    I am here representing Florida Task Force Two based out of 
Miami and sponsored by the city of Miami. I am here to testify 
on the important role of the urban search and rescue canine in 
both local, State, and National, as well as international 
disaster response.
    Canines have been an integral role of the Urban Search and 
Rescue Team since their inception in the early 1980's. Their 
role is to locate survivors and victims of both man-made and 
natural disasters from Oklahoma City to the 9/11 attacks, to 
things like Hurricane Katrina, Hurricane Sandy, and most 
recently Hurricane Matthew.
    I currently serve Florida Taskforce Two as our taskforce 
veterinarian as well as the canine search specialist. You have 
met one of my live find search and rescue dogs who is less than 
impressed that I am here providing testimony for you today.
    In addition, I have one other Nationally-certified live 
find dog as well as a Nationally-certified human remains 
detection dog.
    The role of canines in urban search and rescue is 
critically important. They play a vital role in the location of 
survivors. While survivors have been documented to be found in 
collapsed structures up to 13 to 14 days, obviously we humans 
have biologic needs of food and water, as well as potential 
trauma can certainly limit the survival time.
    So it is essential that we locate and find victims in 
disasters quickly and get them out. These factors emphasize the 
necessity for rapid identification, location, and rescue of any 
survivors.
    This is where our canine search teams live find dogs come 
in, is for that rapid identification, so that those people can 
be rescued. Certainly that their, the dog's keen sense of smell 
with over--up to 300 million olfactory receptors compared to 
our puny 5 million, that these canines make profoundly 
effective detectors when well-trained for specific scents.
    The live find dog is obviously trained to find and identify 
nonspecific human scent whereas our human remains detection 
dogs obviously the--are deceased victims. These canines are 
also capable of working in some of the most extreme 
environments whether they be a rubble pile, in a collapsed 
structure, or a wide-area mass natural disaster.
    These canines also are far superior than any current 
technology at locating both live and deceased victims. Our 
canine search teams in the Urban Search and Rescue system are 
comprised of a single handler and their canine who must undergo 
some pretty rigorous training as well as certification process 
in order to be deployable within the system.
    Handlers are made up of civilians like myself, 
firefighters, and in some cases law enforcement officers. The 
primary responsibility for the care of these canines falls 
directly to the handler.
    These dogs live with us and they become part of our family. 
We will care for these dogs through their retirement, through 
the remainder of their life. A majority of all of the canine's 
expenses also fall to the handler. These include food, routine 
veterinary care as well as if the dog is faced with illness or 
injury.
    Training equipment expenses as well as other training 
expenses are also borne very often by the handler. Sponsoring 
agencies may provide some funding for these expenses but the 
provision of this support will vary throughout the system.
    Dogs are typically purchased or adopted by the handler 
though some system sponsoring agencies will provide dogs for 
their handlers, but again this is variable. We acquire our 
canines from multiple sources.
    Some handlers choose to receive their dogs as puppies and 
train them. Others like myself purchase dogs from a private 
kennel that has a started dog program where they will receive 
some of their foundation training and then ultimately will 
finish their training with their handler who must certify with 
those dogs as a single handler/dog team.
    Some organizations also provide--non-governmental 
organizations will provide dogs through foundations.
    Currently, we have 255 Nationally-certified live find teams 
among the 28 system taskforces. The average age of the dog is 
about 6\1/2\ years. Labrador retrievers make up about 60 
percent of the dogs within the FEMA USR system.
    That is followed by Belgian Malinois at about 13 percent, 
golden retrievers, German shepherds, mixed breeds and some 
other breeds will make up the urban search and rescue live find 
dogs.
    In 2014, we began a system of certifying human remains 
detection dogs. They had no formal role within the Urban Search 
and Rescue System prior to that time. They still do not--are 
not a mandatory requirement, unlike the live find dogs is that 
no USR team is deployable without at least four certified dogs 
to go out the door with them. They are a mandatory requirement.
    The primary role of the USR taskforces is to identify, 
obviously, live victims. But when all live victims have been 
accounted for but there remains people among the missing, the 
human remains detection dogs are deployed to help bring 
closure, excuse me, the victims and the families associated 
with the disaster.
    This is exemplified in 2014 following the massive mudslide 
in Oso, Washington. After local and State responses were 
overwhelmed, nine taskforces deployed another 20 dogs to help 
respond and find and locate the victims of the Oso Mudslides in 
Washington State.
    At the cessation of operations when all teams were 
demobilized all but one of the victims were brought home to 
their family.
    In conclusion, I would just like to tell you what a 
valuable asset these dogs are to the National USR System. It 
has been my honor to serve as a handler.
    [The prepared statement of Dr. Brown follows:]
                  Prepared Statement of Jennifer Brown
                              May 18, 2017
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, thank you for the opportunity to testify as a 
representative of the South Florida Urban Search and Rescue--Florida 
Task Force Two (FL-TF2) regarding the important role of urban search 
and rescue Canine Search Teams in local, State, National, and 
international disaster response. Canines have been an integral 
component in search operations since the inception of urban search and 
rescue task forces, and their--role of locating survivors and victims 
of natural and man-made disasters is vital to this important 
capability's success.
    In 2005 I was deployed with a Veterinary Medical Assistance Team to 
the States of Mississippi and Louisiana in response to Hurricane 
Katrina. During that response, for 5 weeks following Hurricanes Katrina 
and Rita I had the opportunity to work with Canine Search Teams from 
Federal Emergency Management Agency's (FEMA) National Urban Search and 
Rescue Response System (the System) deployed to the above-mentioned 
States. After witnessing the work these dogs were doing in such extreme 
environments, I began training with the System's Maryland Task Force 
One (MD-TF1) to gain more insight into the medical needs of System 
canines. In 2007, I became an official member of MD-TF1 as the task 
force veterinarian and ultimately a canine handler. When my canine and 
I successfully passed our first FEMA Canine Search Team Certification 
Evaluation in 2009, we were certified as a deployable Canine Search 
Team for local, State, and National disaster response. Since relocating 
to Florida in 2010, I have been the task force veterinarian and a 
canine search specialist for South Florida Urban Search and Rescue Task 
Force/Florida Task Force Two (FL-TF2), sponsored by the city of Miami. 
It is in my capacity as a canine handler of two Nationally-certified 
Live Find and one Nationally-certified Human Remains Detection dogs 
that I provide this testimony on the critical role canines perform in 
disaster response.
                               background
    Urban search and rescue task forces were first developed in the 
early 1980's by some local jurisdictions to provide response to 
structural collapse with advanced technical search and rescue 
capabilities. After several international responses (1985 Mexico City 
earthquake, Luzon 1990, Armenia 1988) and National responses (1989 
Hurricane Hugo, 1989 Loma Prieta earthquake) it was recognized that 
expansion of this capability would provide critical response 
infrastructure. Starting with 25 task forces sponsored by local and 
regional fire departments, the System was formed by FEMA in 1992. 
Deployed under Emergency Support Function No. 9 (ESF No. 9) these task 
forces provide the technical expertise and equipment in search and 
rescue for disasters ranging from individual structural collapses to 
wide-spread natural or man-made disasters.
    A National Incident Management System (NIMS) compliant type 1 US&R 
task force is composed of up to 80 personnel who perform search, 
rescue, medical, and technical operations along with other personnel 
who provide leadership, administrative, communications, planning, and 
logistical support. Each System type 1 US&R task force's search 
component must deploy with a minimum of four certified Live Find Canine 
Search Teams (CST-LF). Without these CST-LF members the entire task 
force may not deploy, which emphasizes the critical role that these 
members play.
               role of canines in urban search and rescue
    While it has been documented for people to survive in a collapse up 
to 13-14 days, these are the exceptions and many factors contribute to 
people surviving for any duration after the event. Potential injuries 
suffered in the event, weather, and an individual's need for water and 
food are just some of the factors that result in a necessity for rapid 
rescue to improve survival. This is where a CST-LF is vital: To provide 
rapid identification of survivors and their location so that they can 
be rescued. With approximately 250 million olfactory receptors, 
compared to a human's 5 million, a dog's superior sense of smell make 
them profoundly effective detectors when well-trained for specific 
scents. A CST-LF canine is trained to detect the location of the 
``hidden'' live human scent. These canines are capable of identifying 
survivors quickly and accurately and are superior to any technology in 
this vital search role.
                          canine search teams
    Canine Search Teams are comprised of a single handler and their 
canine who must undergo a rigorous training and testing regime in order 
to be a deployable asset. Handlers are composed of fire fighters, law 
enforcement, and civilians. The primary responsibility of the care of 
the canine falls to the handler, and as such they become part of the 
handler's family who will care for them through retirement and the 
remainder of their life. A majority of all the canine's expenses are 
also borne by the handlers. These expenses include food, general 
veterinary care, veterinary expenses for illness and injury, and 
training equipment and expenses. A Sponsoring Agency may provide some 
funding for these expenses, but provision of this support varies 
throughout the System. In addition, the dogs are typically purchased or 
adopted by the handler, though some System Sponsoring Agencies provide 
dogs for their handlers.
    Canines trained and certified for US&R work are acquired from 
multiple sources. Some handlers will purchase puppies or adolescent 
dogs without any training through kennels that breed working dogs, 
other candidates may be selected from rescue organizations after 
careful screening for the qualities a US&R canine needs to be 
successful. Another source for US&R canines are kennels and non-
governmental organizations that breed and/or train canines specifically 
for US&R work where handlers or task forces may purchase canines who 
have been screened and received most of their foundation training. 
Selection of the appropriate canine for the job is perhaps the most 
critical component of a Canine Search Team. Canines to be used for US&R 
work have some unique qualities that set them apart from other working 
canines. Disaster scenes are often chaotic and environmentally extreme, 
canines must traverse the sites of collapsed structures quickly and 
efficiently, with workers and equipment operating around them. In 
addition to the necessary qualities of all search canines such as a 
good nose, health, drive, and trainability, US&R canines must also have 
incredible nerve, strength, and agility in order to be able to work in 
the disaster environment. Only a small subset of canines has all these 
important qualities to make them successful in US&R search operations 
and achieve CST-LF certification.
    There is a significant commitment on the part of a handler to 
prepare and maintain a canine for US&R deployment. They routinely 
complete hundreds of training hours every year just to maintain 
proficiency. Prior to their first Certification Evaluation these hours 
may be doubled to appropriately prepare both the handler and the canine 
for the evaluation. It takes, on average, 12-18 months to fully train a 
canine for its Certification Evaluation. Within the System, Canine 
Search Teams re-certify every 3 years.
                canine search teams--live find (cst-lf)
    While CST-LF have been a vital component of the US&R task forces 
since their inception in the early `80's a standardized evaluation 
process was not implemented for System use until 2004. Currently, 
certification within the System is done in two parts. The first testing 
component is the Foundation Skills Assessment (FSA) which evaluates 
obedience, direction and control, alert commitment, agility, and basic 
search skills. After successful completion of the FSA, a Canine Search 
Team is then eligible to go through the Certification Evaluation 
process. The Certification Evaluation is the final test required by the 
System and successful completion is required for deployability. This 
test is comprised of two complex rubble pile searches where the testing 
canine search team must locate up to six ``survivors'' without any 
false alerts in order to pass. These Certification Evaluations provide 
the System a mechanism to assure that its CST-LFs meet the minimum 
standards for deployment. However, a CST's training does not end there, 
it will continue throughout the entire career of both the handler and 
the canine.
    As of March 2017, there are 255 CST-LF teams among the System's 28 
task forces with an average canine age of 6.5 years. Labrador 
Retrievers make up a majority of the certified CST-LFs at 60 percent, 
with Belgian Malinois (13 percent), Golden Retrievers (6 percent), 
German Shepherds (6 percent), mixed breed (6 percent), and a variety of 
other breeds making up the remaining of the canines. A certified US&R 
canine will typically work until 10-12 years of age.
         canine search teams--human remains detection (cst-hrd)
    CST-HRD are a relatively new component of US&R task forces and were 
implemented by the System in 2014. Unlike CST-LF, certified CST-HRDs 
are not mandatory for deployment of a System task force. Just like with 
CST-LFs, support of CST-HRDs by System task forces is also voluntary. 
While the primary role of the US&R task forces is to identify, and 
rescue survivors, after the searches for survivors has been concluded, 
and if people remain missing, CST-HRDs may be deployed. The work of the 
CST-HRD is to locate victims and help bring closure to the friends and 
families of those who did not survive a disaster. These CST-HRDs work 
in close coordination with Federal, State, and/or local law enforcement 
and coroner's offices that are responsible for identification and 
processing of detected remains. The 2014 response to the SR-530 
Mudslides exemplifies the role of the CST-HRD in disaster response. On 
March 22, 2014, an unstable hillside collapsed engulfing an entire 
community in Oso, WA and the initial response was carried out by local 
and State first responders. The State of Washington activated and 
deployed Washington Task Force One (WA-TF1), one of the System's 28 
task forces, as a local resource. At the request of the State and FEMA 
Region X, the System deployed an Incident Support Team (IST) and 
California Task Force Seven (CA-TF7) to support on-going operations. 
Local and regional CST-LFs worked tirelessly with other first 
responders to locate both survivors and victims of the slide. On April 
2, 2014 20 CST-HRDs were deployed from nine different System task 
forces to augment on-going recovery operations. Working alongside State 
and local responders, at the end of official search and recovery 
operations CST-HRDs from the System helped locate all but one of the 43 
victims.
    Selection, training, and certification of a CST-HRD canine is 
similar to that of a CST-LF. Certification for deployment is based on 
the CST-LF FSA but has only one component. For the CST-HRD 
Certification Evaluation, obedience, direction and control, alert 
commitment, agility, and basic search skills in a disaster environment 
are tested for human remains detection.
    Currently there are 74 certified CST-HRDs in the System, with an 
average age of 6.9 years. Like the CST-LF they are primarily Labrador 
Retrievers (50 percent), with the remainder being German Shepherds (15 
percent), Malinois (10 percent), Mixed Breed (6 percent), and other 
breeds. A CST-HRD in the System also recertifies every 3 years and is 
expected to retire at 10-12 years of age.
                                summary
    Canine Search Teams have an important task in disaster response on 
a local, regional, National, and international scope to help locate 
both survivors and victims. CST handlers are extremely dedicated 
responders who volunteer significant time and expense to assure that 
they and their canines are prepared to respond to any disaster 
situation, at any time, in any location. They are a valuable asset to 
the National US&R Response System and it has been my honor to serve as 
a handler on both a CST-LF and CST-HRD, as well as a Veterinarian 
caring for working canines since 2005. I hope to see support continue 
for these canines and their vital role well into the future.
    Thank you, Chairman Perry, Ranking Member Correa, and Members of 
this subcommittee for the privilege of providing testimony on the role 
of Canine Search Teams in disaster response.

    Mr. Perry. Thank you. Thank you for your statement, Dr. 
Brown.
    The Chair now recognizes himself for 5 minutes.
    I am going to start with Mr. Montes, I think. What can you 
tell us about any challenges that exist for canines at ports of 
entry and checkpoints that might inhibit the teams' ability to 
detect contraband and drugs?
    Maybe physical challenges, maybe airflows, things that we--
that you know that we don't think about that maybe we should 
know about to help us understand your difficulty or the 
challenge for your team.
    Mr. Montes. Yes, sir. So, as the director of the CBP Canine 
Training Program the scope of my responsibilities where I stand 
is to work hand-in-hand with the operation of components to 
understand the challenges they have in their respective areas.
    This is where I would ask that Mr. Jaquez can kind-of speak 
to those operational challenges----
    Mr. Perry. OK.
    Mr. Montes [continuing]. They face and in partnership in 
the training center we can build those training environments to 
replicate or emulate those challenges that they have.
    Mr. Perry. All right.
    Mr. Jaquez.
    Mr. Jaquez. So, sir, for the checkpoint scenario that we 
basically deploy the majority of our canines to, the canine 
handlers are trained to take into account, you know, the air, 
the cones, the scent cone, the canopy, the direction of the 
wind, the heat, all the variables that go with handling the 
canine. Those handlers know the canine best.
    Mr. Perry. Well. let me move to something that is maybe not 
as sensational but it is important to at least to people that I 
am privileged to represent. In the short amount of time that I 
have been here we have dealt with a--I represent a pretty large 
fruit belt in Central, South Central Pennsylvania.
    Over the last few years we have dealt with a thing called 
the Plum Pox. The stink bug, and I suspect maybe you know what 
I am talking about, about this stink bug, and a thing called 
the ash bore which in--as far as I can tell is going to 
effectively wipe out every ash tree in the country.
    Is that a capability that they can be trained to detect a 
certain insect? I think, well, maybe a stink bug, right? But I 
don't know about an ash bore. Is that something that from an 
agricultural standpoint, I mean, how far can you go? Is that 
something you consider?
    Just out of curiosity because it is a big deal where we 
live.
    Mr. Jaquez. So absolutely. So if there is a recognizable 
odor, you can train a dog to find it. So, if there is something 
that we can imprint, an odor that we can imprint on the canine 
we can use the natural canine's drives and behaviors to change 
the focus on that.
    I guess the best example would be bed bugs.
    Mr. Perry. OK. I mean, is that a thing that the Department 
of Agriculture works with you on trying to determine potential 
incoming threats? I mean do you--how do you target--I mean, 
once it is here, it is here. It is too late, right?
    I mean, not that you want more, but once the ash bore got 
here, I mean, literally you can see a stand of ash trees in a 
season they are dead. They are all gone. They are not--you 
know, it is a 100-year-old tree. It is never coming back.
    So, I mean, is there any proactive measures to--I think it 
is probably a big deal for industry and for economies whether 
it is your fruits or, you know, people make baseball bats out 
of ash trees, right? Or at least they used to.
    If you are a baseball player that is a big deal. So how do 
we get--I mean do we get in front of it or there a kind of 
after the fact that we are trying to keep, you know, more from 
coming? Whether it is turtles, whether it is snakes, whether it 
is insects or what have you.
    How does that work? How does that work out?
    Mr. Montes. So currently as we speak we as far as within 
the canine program that I manage, it is a training component 
that we have. We have not had that conversation. This is 
something that we can definitely take a question for the record 
and get with USDA and the Office of Field Operations to inquire 
if there are--if there were or have been, or are having 
conversations in reference to that particular----
    Mr. Perry. So who? I mean, somebody must develop a list, 
right, of what we don't want coming in the country? Or is it 
just anything? Any live animal, any insect, any plant material? 
Is it all of it can't come in? Who develops that list? Where is 
that determined?
    Mr. Montes. I think the list of invasive species, sir, is 
exclusive with the USDA and working with the agricultural 
component of the Office of Field Operations. They would be able 
to better speak to that, how that process would go as far as 
identifying an invasive species and any corrective measures 
that they would put to prevent that infestation.
    Mr. Perry. OK. This might be a little bit of a morbid 
question. But I think it is a curiosity probably everybody is 
wondering about, but doesn't want to ask, and maybe didn't 
think about it until you were here.
    But, Dr. Brown, how do you train/keep current a cadaver 
dog?
    Ms. Brown. Well similar to any detection dog we have 
cadaver source material. So just as an explosive dogs or 
narcotics dogs we have training aids that are really----
    Mr. Perry. What is cadaver source material?
    Ms. Brown. It is literally human remains.
    Mr. Perry. Yes, right.
    Ms. Brown. Yes.
    Mr. Perry. So where does that come from?
    Ms. Brown. Depending on the jurisdiction because this is 
very variable by State. Every State will have its law as far as 
who can obtain and maintain human remains. So in different 
jurisdictions it is much more difficult or much more easy to be 
able to have a cadaver dog to--and have source for that.
    Mr. Perry. I mean is that a----
    Ms. Brown. So as far----
    Mr. Perry. Is that a licensing requirement? Where do you 
keep the material, and how long do you leave it out? I mean, I 
have got just--my mind is awash with the specifics. I can't 
help myself.
    Ms. Brown. Right. So for example I will have source 
materials such as teeth, bone, placenta. We will work with 
people that have donated their bodies for scientific use.
    Mr. Perry. OK.
    Ms. Brown. There are chain of custody requirements based on 
the State as far as source gets transferred, as far as that 
goes.
    Mr. Perry. This is a little specific, and maybe it is 
unpleasant. But do you have leave it out a certain amount of 
days? Or is there different standards, or?
    Ms. Brown. Certainly you maintain a training log. Depending 
on, you know, again if we are talking law enforcement is a bit 
different standard than we are talking disaster. But certainly 
we look at different times of decomposition.
    Mr. Perry. Right.
    Ms. Brown. So very often storage will freeze our source 
just so it stops the decay process and then it will get thawed. 
So it will over time continue to decay. But then we also 
especially in a disaster situation, we are also--you know, we 
are always a little hungry for--I know this sounds really 
morbid. Really hungry for a fresh source.
    Mr. Perry. Right.
    Ms. Brown. Which can be very difficult in our situation. It 
can be a little bit difficult to----
    Mr. Perry. Yes--when you include hungry in the 
description----
    Ms. Brown. Right.
    Mr. Perry. But you have to get what you can.
    Ms. Brown. But it can be difficult to obtain and maintain 
source.
    Mr. Perry. Yes, OK.
    Ms. Brown. Which is a challenge for a lot of people that 
train human remains-detecting dogs.
    Mr. Perry. Those are the little things we don't think of 
and from a policy perspective----
    Ms. Brown. Yes, and----
    Mr. Perry [continuing]. And is something we need to know 
there to make a difference would be an opportune time to tell 
us. I am spending a lot more time----
    Ms. Brown. Yes.
    Mr. Perry [continuing]. Than I am supposed to with the 
committee's indulgence, one final question. I imagine a person 
in your--in your position sees things that many people never 
see or don't want to see, and they potentially have an impact 
on you. Do you have access to the same services that maybe a 
police officer or other law enforcement or emergency service 
personnel might need to access too based on your experiences? 
If you know what I mean.
    Ms. Brown. Yes, we get training in critical incident stress 
management, and certainly as a task force, you know, as people 
come home from deployment that is followed through our medical 
team.
    Mr. Perry. OK.
    Ms. Brown. As far as that goes.
    Mr. Perry. If there are things and items, or issues 
specific to that question that need to be addressed it would 
also be a good time to let us know----
    Ms. Brown. Yes.
    Mr. Perry [continuing]. On the committee. We will take the 
opportunity. I appreciate it.
    With that way long--privileged to recognize the Ranking 
Member Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. I was just informed 
that Ms. Barragan has to leave and has a couple of questions. 
So I would, with your permission, defer to her for quick 
questions before I go.
    Mr. Perry. Without objection.
    Ms. Barragan. Thank you. Thank you all for your service. I 
had an opportunity to come out a little early and get to meet 
the dogs who did their exercise. It was just really neat to see 
them in action, and to see how they contribute to the security 
of our country and the work that the men and women do in your 
Department. So thank you for that.
    I represent the Port of Los Angeles which is--we call it 
America's Port. It is America's largest port by volume. I have 
seen in some of the literature some work that the canine units 
do at seaports. But I haven't had a chance to see any when I 
have been down there.
    Do you know if there are any canine units down in the Los 
Angeles Port?
    Mr. Montes. So I know that there are canine units deployed 
in the Los Angeles field office. Particularly where they are 
actually deployed I can--we would have to get back to you 
exactly where that is.
    Ms. Barragan. OK. Do you know what kind of work canines 
would be used for at the seaports around our country?
    Mr. Montes. Absolutely, so the canines that are utilized 
within the Office of Field Operations go through our training 
centers, either one of our training centers in El Paso and 
Front Royal.
    Those canines are trained for the basic odors of narcotics 
and concealed humans. So that basic foundation of law 
enforcement requirement that is put on these canines, those are 
deployed universally across CBP whether it is within the Office 
of Field Operations or the United States Border Patrol.
    Ms. Barragan. OK, great. I also know that I was down at the 
airport the other day at TSA Meet Me as well CBP. I know that 
TSA utilizes canine teams at more than 100 of the Nation's 
airports, mass transit and maritime systems, and recently-
deployed canine teams to the airports in Baltimore, Saint 
Louis, Boston, and Nashville.
    How does TSA select which airports to deploy canine teams 
to?
    Ms. Harvey. Thank you for that question. We use a risk-
based deployment methodology. We have about 11 factors. All of 
the factors and their weights are sensitive. However they are 
the things that you would typically expect to find.
    Like passenger volume, obviously we want to put the teams 
where they can screen the highest volume of people. The threat 
of that area, international enplanements and so on.
    Ms. Barragan. Do you happen to know at the largest airports 
how--on average how many canine teams are used? Like Atlanta, 
Los Angeles, Chicago?
    Ms. Harvey. Sure. So it really varies by airport. It 
depends on the passenger volume they have, the number of 
checkpoints and so on.
    For example, Chicago has allocated 14 passenger screening 
canine teams, but their Chicago Police Department has a number 
of teams that they also use to work in the public area and 
secure area. JFK has 20 teams. So it really varies by the 
airport.
    Ms. Barragan. You know, all the airports are very 
different. How do the dogs adjust to the different types of 
layouts and settings that are at the different airports?
    Ms. Harvey. Thank you for that question. Similar to CBP the 
handlers are trained to figure out how their partner can best 
work in their environment. When the teams get back from 
Lackland, from their training at the canine training center 
there is a period of acclimation where they get used to the air 
flow.
    Many airports have escalators. We don't have escalators at 
our training centers. So we have to get the canines used to 
operating on the escalators and so on. So that is really the 
job of the handler to figure out how to make his or her partner 
the most comfortable in their environment.
    Ms. Barragan. Great. The last question, anybody can answer, 
is what can Congress do to help continue to support the canine 
programs and the work that you will do to protect our country?
    Mr. Montes. At this point from where I stand as a director 
the CBP Canine Program, the support that we have received thus 
far in promoting and maintaining the consistency of our 
training centers to ensure that we are meeting our operational 
requirements, we would definitely defer to our senior 
leadership to identify what those operational requirements are.
    In turn from a training perspective ensure that we are 
meeting or we would develop and have available the training 
locations to meet those operational needs.
    Ms. Harvey. Similarly from TSA's perspective Congress has 
been very supportive of the program in terms of resources. So 
the program has expanded over time and we greatly appreciate 
that as well as your advocacy for the program.
    Even in many of your local jurisdictions I know that you 
interact with the law enforcement that operate our canines as 
well as our teams in the passenger screening queue. We 
appreciate that support and advocacy.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Mr. Perry. The Chair thanks the gentlewoman from 
California, Ms. Barragan.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Director Montes, you train canines, right brother?
    Mr. Montes. Yes, sir.
    Mr. Higgins. Have you ever observed in your career, in your 
service for your country, a machine or any device, any man-made 
device that can detect explosives better than one of your well-
trained dogs and his handler?
    Mr. Montes. Sir, I started my canine career, sir, 23 years 
ago in the United States Marine Corps. Since then I have been 
in and out of the canine program. Being a canine handler in the 
Marine Corps, as an explosive handler, and a narcotic handler, 
evolving my personal career now sitting in front of you as the 
director of the CBP Canine Program.
    It is one of God's most simplest designs, and one of the 
most effective ways to utilize in such a diverse operational 
environment that we experience. Technology has its purposes. 
But technology as well has its challenges.
    These canines have these innate abilities as you--that we 
demonstrated earlier today these drives just to work for a toy. 
So there is no better design in my opinion, sir, than a canine 
to utilize in the various operational environments that we 
experience within the United States.
    Mr. Higgins. Thank you for your candid and thorough answer, 
sir. I ask that because our job on this committee is to protect 
the citizenry of our country. But at the same time we are a 
Nation that faces a $20 trillion debt. We are faced with 
decisions to make regarding what is the best means by which to 
protect the American citizens within our homeland.
    It occurs to me in my experience, I have a military 
background in law enforcement, canines work damn well. They are 
much less expensive than million-dollar machinery. They are 
pretty easy to maintain.
    So I am going to ask you this, sir. Can your dogs detect 
composition four, C4, and Semtex?
    Mr. Montes. So, sir, for the Customs and Border Protection 
we currently don't train our dogs on explosives, sir.
    Mr. Higgins. Who should I address that question to? Ms. 
Harvey.
    Ms. Harvey. Sir, the fullest of explosives that our teams 
are trained on is sensitive security information and we can 
share that with you in another setting.
    Mr. Higgins. Roger that. Ms. Harvey, this question would be 
directed at you, ma'am, as Director of Office of Security 
Operations for the TSA. I am specifically focused on TSA and 
explosive detection.
    I would ask you, ma'am, as a traveler yourself no doubt 
you----
    Ms. Harvey. I do.
    Mr. Higgins [continuing]. You traverse through the airports 
of our Nation.
    Ms. Harvey. Yes.
    Mr. Higgins. Would you feel safer on an aircraft with 
passengers and baggage that has been checked by one machine or 
two dogs with their handlers?
    Ms. Harvey. Thank you for that question. Canines are 
incredibly effective. They can do things that we can't even 
measure with the machines. I feel very safe when the passengers 
and the baggage have been screened by a canine.
    Mr. Higgins. Thank you for your answer.
    Mr. Chairman, it is my humble suggestion to this committee 
that as we move forward in making considered recommendations 
for the full committee regarding the expenditure of the 
people's treasure that we recall this conversation from the 
experts and boots on the ground.
    I myself find that a canine team, a well-trained canine 
team with a good handler is the most effective means by which 
to detect explosive substance, and as a traveler, frequent 
traveler I feel quite safe when I see canine teams in the 
airport.
    With that, I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Correa.
    Mr. Correa. Thank you, Mr. Chairman. I just wanted to say 
that I want to follow-up on some of Mr. Higgin's comments. I 
think he is on to something here.
    As I mentioned, I took a tour of the border a few weeks 
ago. The most crossed border probably in the world is the San 
Ysidro border. A lot of cars, a lot of people flowing through 
that on a daily basis.
    My question would be, is, are you fully staffed in terms of 
having canine units to do your job properly, not only there but 
in the rest of the country? Because if your answers to Mr. 
Higgins were that canine units are, you know, best.
    I would imagine Dr. Carrick that we can probably train 
those canine units to do even more in the future. The question 
being the Treasury, our budgetary challenges. But, again, 
balancing our budgetary challenges versus the safety of our 
country, safety of our citizens.
    The question is: Are we short on these canine units? Can we 
use more in terms of investing in this kind of defense for our 
country? Open it up.
    Mr. Jaquez. Well, sir, I would like to--if you could please 
specify where exactly are you looking at in terms of deployment 
for the canines.
    Mr. Correa. Thank you, Director.
    Mr. Jaquez. Between the borders or at the borders?
    Mr. Correa. I would say all of the above. Because I think 
the defense of our country is at airports, ports of entry, 
their vehicles, you know, ships, airplanes, all of the above.
    Mr. Jaquez. So between the ports of entry for the Border 
Patrol, we are under staffing requirement currently with the 
canines. But we work with OTD to get as close to that as 
possible.
    We rely heavily on the field to tell us what they can use 
and what they can deploy. We don't want to give them assets 
that they can't deploy. So yes we are understaffed, but not to 
detriment of our operation. Does that make sense?
    Mr. Correa. Can you restate the answer? Because if you are 
understaffed that means that there are--I don't want to put 
words in your mouth, sir. But if you are understaffed that 
means that you could use more.
    Mr. Jaquez. So our canine----
    Mr. Correa. But it is not at the detriment of your 
operations but I guess if I may restate my question, should we 
be investing, be looking at investing more on canine units as 
opposed to as Mr. Higgins alluded other technologies, other 
areas in our defense of our country?
    Mr. Jaquez. So while I am biased for the canine program----
    Mr. Correa. We are all biased. We love these dogs.
    Mr. Jaquez. We are biased for the Canine Program. It does 
take a mix of technology, manpower, and tools. Canines are a 
tool. But there are other tools that we need on the border as 
well. So to me it is a combination of all those aspects put 
together to secure the border.
    Mr. Correa. So if I may, I want to ask Ms. Harvey a 
question. Which is can you compare the success rate or 
effectiveness of canine explosive detection teams versus human 
screening methods?
    Ms. Harvey. So similar to the----
    Mr. Correa. Including technology.
    Ms. Harvey. Sure. So yes. We know the effectiveness of the 
canines. They are very effective at detecting explosives. When 
you go through a checkpoint there are a number of other 
things--or your baggage goes through screening, there are a 
number of other things that TSA is looking for.
    There are prohibited items that canines can't find and that 
is where our layered approach works. For example, you know, 
guns and knives are things that our--that our canines aren't 
trained to detect. So it does take a layered system.
    Mr. Correa. They are trained to detect or not?
    Ms. Harvey. They are not trained to detect knives or guns. 
They are trained solely on explosives.
    Mr. Correa. OK. So it is a layered defense then that we are 
talking about. So for example at our border crossings then you 
would have both X-ray machines and canine units?
    Ms. Harvey. So I can only speak to the airports.
    Mr. Correa. OK.
    Ms. Harvey. Sorry.
    Mr. Correa. Anybody else speak there?
    Mr. Montes. Absolutely, sir. You know, we like to use this 
terminology, you know, bad guys are like water. They are going 
to flow through the path of least resistance.
    So if you have an enforcement posture at a port of entry, 
whether it is an NII technology, X-ray technology, canine 
technology, or even the fine officers and agents that are 
working at the port of entry as soon as we start to close that 
noose that is gonna--now they are gonna try to find another 
area of vulnerability.
    This is where the Office of Field Operations and the United 
States Border Patrol work hand-in-hand. As the director of the 
CBP Canine Program I sit down with my counterparts to determine 
how our canine--how effective our canine units are out in the 
field, and what do we need to increase or amend in our training 
environments.
    So there is definitely a comprehensive multi-layered 
approach to where all of these mechanisms, systems, is placed 
with the best technology are canines and manpower all 
contribute to our law enforcement operations to prevent illicit 
items and goods from entering the United States.
    Mr. Correa. Final question is, anybody out there, the VIPR 
Program is--there are some--the administration is proposing 
cuts to the program. How will this affect our defense of our 
country? How will this affect your staffing, your canine units 
available to do your job?
    Ms. Harvey. Sir, while our canine--so TSA canine units 
whether they are law enforcement or TSA handlers they sometimes 
participate in the VIPR operations, our funding does not come 
from that program.
    So we have seen no cut in the canine program as a result of 
that.
    Mr. Correa. Thank you.
    Ms. Harvey. You are welcome.
    Mr. Perry. The Chair thanks the Ranking Member.
    The Chair now recognizes the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Before we get started this is Law Enforcement Week. I just 
want to thank all the men and women in the room that work in 
law enforcement protecting our country in your various 
capacities. That goes for the canines as well.
    We appreciate the work that the dogs do to keep our country 
safe at the ports of entry against drug smuggling, against 
weapons, other things, and airports. So thank you. God bless 
you for what you do. I wanted to let you know that you are in 
our thoughts and prayers not just this week but always.
    Every single day we appreciate what you do. I speak on 
behalf of the Members of the third Congressional District, 
people I represent in South Carolina. But I think I speak for 
the Nation.
    We do a law enforcement appreciation tour across my 
district. One thing I have noticed, Mr. Chairman, is 
historically people have gone up to men and women in military 
uniforms and thanked them for their service to their country.
    But what we are seeing now, folks going up to law 
enforcement, first responders all across and saying thank them, 
thank you for what you do, keep our Nation safe, keep our 
communities safe, keep our families and our neighbors and our 
properties safe.
    So it is all-inclusive for law enforcement. So again I say 
thanks.
    I traveled back a number of years ago down to the Nogales 
sector in Arizona. While we were there, there was an inland 
checkpoint, not at the border. We went to the border of course. 
But there was a checkpoint.
    I don't want to give away where it is. Some miles inland, 
maybe 30. I don't know. It was a canopy over the road. Canines 
were used to check the cars as they came through. I saw the 
efforts of the smugglers to thwart the dogs, sometimes having 
the drugs three cars back, but having multiple cars with 
indicators on it that the dogs would hit on.
    So those cars could be pulled out of line distracting the 
officers and the canines while that car was being searched so 
that the contraband could come through.
    It is a challenge every day for you guys. I realize that. 
One thing that struck me though was how hot it was under--it 
was a shaded area but it was just an open shelter over the 
highway.
    There was a canine kennel that was air conditioned. I don't 
think the men and women had the air conditioning. I think the 
dogs did. I was proud of that. But I also had conversations 
with the folks with CBP there about, and ICE, about future 
plans to make that more of a permanent facility with good 
facilities for the men and women that were working the 
checkpoint but also for the canines.
    Can you tell me is that--has that happened? Have they I 
guess built that out? Is that a problem in multiple checkpoints 
across the southwest particularly because of the extreme 
temperatures?
    It would take a toll on the dogs. We were told that over 
and over the toll that the heat takes on the canines.
    So I would love for you to talk about what the facilities 
are like. Specifically with the canines but you can be general, 
and what we can do to try to help facilitate making sure that 
facilities like that have got in Nogales or in the Nogales 
sector were up to the needs of the men and women.
    So Mr. Montes, if you want to talk about that. I would come 
all the way across.
    Mr. Montes. Absolutely, sir. So from a training perspective 
this is where myself and Mr. Jaquez, my counterpart, we discuss 
how we train our canines. So right now we have a canine entity 
or an academy in El Paso, Texas and we have it in Front Royal, 
Virginia.
    The one in El Paso, Texas has the environment and the 
climate so that when we train our canines, when Mr. Jaquez 
makes that operational request, we take those canines, we send 
them to El Paso, Texas. We train them in that environment so 
they are acclimatized.
    Because ideally these canines will not be able to work 
under a sheltered environment, under a covered environment. 
They usually, normally work in an austere environment.
    As for the infrastructure of these checkpoints I would 
defer to Mr. Jaquez to answer that, sir.
    Mr. Jaquez. Mr. Duncan, so for the checkpoints of course we 
analyze the priorities across the board to see where the 
funding goes for each checkpoint in each facility. We have a 
lot of facilities across the border in the Border Patrol that 
require updates.
    But as far as it relates to the canine they are the primary 
concern. The handlers will make sure when that canine is 
deployed and when he is put up. If the dog is suffering from 
heat stress, dehydration, that handler is trained to make that 
decision and not keep the dog out in that element.
    Mr. Duncan. Chime in on that. I would like to know what 
kind of toll it takes on the dogs working in that hot 
environment day in, day out, and maybe how many dogs you have 
to have in rotation.
    Mr. Jaquez. So----
    Mr. Duncan. Have you had any loss of life in the canine 
area from----
    Mr. Jaquez. Every year with the Border Patrol because our 
canines are out there in the element every day, every year we 
send out a policy reminder for heat stress to make sure that 
our canine handlers are up to speed.
    We also have a biweekly training where we train the 
handlers to keep an eye on the dog and we identify any 
deficiencies between the team. The primary responsibility is 
the care and maintenance of that canine. It is the foremost for 
the handler and the instructors in the field.
    When it comes to deployment of the canine we try to rotate 
the canines through the checkpoint as much as possible. If at 
all possible you want to have a nose on the point as much 
throughout the day as possible.
    They don't necessarily have to sniff every vehicle. But 
they are there air scenting all the traffic coming through the 
checkpoint. So it is not necessarily as much work as it would 
be putting a nose to every seam on the vehicle. Does that make 
sense?
    Mr. Duncan. Thank you. My time has expired. It is up to the 
Chairman.
    Mr. Montes. If I may? So from a training perspective when 
the Border Patrol agents and the OFO officers come to our 
academy they receive a robust training in first aid to identify 
these fatigues in these canines to understand how and when to 
deploy their canines in the field.
    That all starts in the academy. So as they go back, that 
first initial training that we provide them in our academies on 
basic canine first aid, that now evolves when they go back and 
they work for their training supervisors in the field and their 
senior mentor handlers to ensure that they are deploying their 
canines within their capabilities.
    So they are not succumbing to some kind of heat illness or 
distress.
    Mr. Duncan. Do you ever have any animal rights activists 
show up and complain about dogs being used in that heat? Is 
that a factor?
    Mr. Montes. At the training center, no. We haven't had 
anybody come to complain as far as us training our dogs. We 
have an open door policy. We try to provide as many visits that 
have been vetted, what we do, to show them that our canines 
within CBP receive the optimal best veterinary care, the 
optimal best housing.
    So these are our partners. These are our law enforcement 
partners. It is our responsibility and it starts at the canine 
center to ensure that we are picking the absolute best dog, the 
absolute best health so that when this canine goes to the field 
it can work optimally in an operational environment.
    As well as us, and we talk about that continually. Like we 
want to make sure that our canines work for a relative 7 to 9 
years so that they now can have a reasonable retired life. 
Because we do ask of them very much.
    Mr. Duncan. Thank you.
    My time has expired. I appreciate the leniency, Mr. Chair.
    Mr. Perry. The Chair thanks to the gentleman from South 
Carolina.
    The Chair recognizes the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. Thank you to the 
committee for allowing me to participate in this. I just want 
to point out an article that was in the Wall Street Journal 
Saturday, the Saturday/Sunday edition, March 25, 26, 2017 that 
says dogs still beat technology in the smell test. I would like 
to enter that into the record if I may.
    [The information follows:]
       Article Submitted For the Record by Honorable Gary Palmer
Wall Street Journal
    Dogs clearly love to smell. They snarfle their way along the 
sidewalk. They plant their snouts where you wish they wouldn't. They 
snuftle, snort and sneeze, pulling in great gulps of air and sorting 
out the scents as they go.
    We accept that dogs have sharp noses, and we train them to detect 
bombs, drugs, bodies, fugitives, pests and cancer. But our knowledge of 
the limits of their abilities is scant. Studies are relatively few, the 
number of animals tested is typically small, and the results are 
disparate.
    A variety of things can impair a dog's performance, from boredom to 
stress to cues from a handler. Their accuracy may approach perfection, 
but it also may dip to disturbingly low levels.
    ``There are not many sensors you would deploy in the real world and 
not know when it's not going to work,'' said Nathaniel Hall, director 
oftbe Canine Olfaction Research and Education Laboratory at Texas Tech 
University.
    One Universitv of California, Davis study testing the influence of 
handlers found that drug- and bomb-sniffing dogs were wrong more than 
half the time when their handlers were given erroneous information 
about the presence of target odors.
    For such reasons, a carefully calibrated machine might be 
preferable to a dog.
    Easier said than done.
    ``What's cool about dogs is when they do come into contact with an 
odor, they can track it to its source,'' said L. Paul Waggoner, co-
director of the Canine Performance Sciences Program at Auburn 
University. ``There is not an instrument out there that replicates a 
dog's nose.'' That's not for lack of effort.
    The Defense Advanced Research Projects Agency of the U.S. 
Department of Defense spent $66 million between 1997 and 2010 drawing 
on the expertise of at least 35 different research institutions to 
develop sensors that could detect explosives as ably as a dog and 
identify other chemicals.
    They couldn't do it.
    Meanwhile, scientitic studies to measure the extent of dogs' 
sniffing powers typically have involved few animals, and the results 
have varied wildly.
    In a frequently cited 1953 study, Walter Neuhaus, a German 
researcher, tested a single fox terrier and found it could detect 
butyric acid, sometimes described as smelling like vomit or body odor, 
at the astonishingly low concentration of .0004 parts per trillion.
    In 1960, David G. Moulton, a researcher at the University of 
Pennsylvania, tested the same chemical with two crossbred Labradors. 
Their limit was 137 parts per trillion, or roughly 340,000 times 
greater than the concentration documented by Neuhaus. Studies with 
other breeds and odors have also delivered mixed results.
    In 1984, Deena Hope Krestel tested six beagles and found they could 
pick out amyl acetate, a chemical that smells like bananas, at 
concentrations of 52,000 to 32,600 parts per trillion. Dianne Beidler 
Walker fared better in 2006 with two dogs, a Rottweiler and a standard 
schnauzer, that detected the same chemical at just 1.9 parts per 
trillion and 1.14 parts per trillion. Differences in things such as the 
testing method or canine training can affect outcomes, and even with 
varying levels of sensitivity, the studies confirm dogs have an acute 
sense of smell.
    Some say that validation is enough.
    ``Let's talk about human search and rescue,'' said Cynthia M. Otto, 
director of the Penn Vet Working Dog Center at the University of 
Pennsylvania, who has trained dogs to detect explosives, cancer and 
bedbugs. ``We don't care about the thresholds. We have a whole body.''
    Rather than focusing on sensitivity, other studies have focused on 
the perfection of training techniques or determining whether dogs can 
be replaced.
    In the 1970s, the Southwest Research Institute, working for the 
U.S. Army, tested the odor-detecting ability of a variety of animals 
compared with dogs.
    Cats were excluded because they are uncooperative. Cows were left 
out because the idea of bomb-sniffing bovines struck the researchers as 
ludicrous. Sheep and goats were deemed too stupid. But dogs, pigs, 
ferrets, coyotes, wolves, foxes, skunks, opossums, deer and raccoons 
made the cut.
    Surprisingly, pigs and ferrets outperformed German shepherds and 
Labrador retrievers, breeds often chosen for odor detection.
    But overall, dogs won out because of their combination of 
qualities: Not only do they have strong noses, they are compatible with 
people, they respond to training, and--for now--they beat technology 
paws down.

    Mr. Palmer. Mr. Carrick, you said they are the best and 
most mobile detection asset available. I think that----
    Mr. Carrick. Yes, sir.
    Mr. Palmer. I appreciate that.
    Then Mr. Montes, you said the bad guys are going to seek 
the path of least resistance.
    That said doesn't it make sense to do more in terms of 
perimeter security at our airports and our transportation hubs 
by utilizing dogs, particular on the--like I said, on the 
perimeter or perhaps inside, pre, before you go through the 
checkpoints?
    Ms. Harvey. So from TSA's perspective, yes, we do actually 
use--we have over 800 teams that are deployed at airports 
across the country. They work a variety of locations. They are 
very mobile as Dr. Carrick said.
    They work in the public area. They also work in the secured 
area to screen for any insiders who might intend to do us harm 
as well as at our checkpoint.
    Mr. Palmer. There is not a constant presence. I don't----
    Ms. Harvey. There is not.
    Mr. Palmer. There is not even a constant presence at DCA. 
You pull up to the curb and you see a squad car, a police car, 
but you don't see a dog. I spent 3 hours in the Delta line a 
few weeks ago when the thunderstorms canceled all our flights, 
hundreds of people.
    There was no patrols with dogs or anything. It concerns me 
that we are not doing that in light of what happened in 
Brussels. I think was it Turkey that we had an incident? Then 
of course we had the baggage claim incident at Fort Lauderdale.
    Let me ask you this, Ms. Harvey. I think you are funded at 
$121.7 million. Are you adequately funded for your canine 
units?
    Ms. Harvey. Yes. So in fiscal year 2017 actually Congress 
funded us for 50 additional teams. So we are busy training and 
deploying those teams. That brings us to a total of 1,047.
    Mr. Palmer. Where do you get your dogs?
    Ms. Harvey. A variety of sources. So we are co-located with 
the Military Working Dog Program that DoD runs. And we have an 
interagency agreement with DoD. We use the same vendors that 
they use for the majority of our dogs.
    We also have a couple of agreements with domestic vendors 
from which we also get canines.
    Mr. Palmer. Who are they?
    Ms. Harvey. I am not familiar with the whole list of the 
vendors that we have----
    Mr. Palmer. Are any of the dogs foreign-sourced?
    Ms. Harvey. Through DoD, yes, some of their vendors are 
overseas vendors.
    Mr. Palmer. Dr. Brown, are any of your dogs foreign-
sourced?
    Ms. Brown. No.
    Mr. Palmer. Thank you. You know, the administration has an 
emphasis on Buy American. It just seems to me it would make 
sense that you would prefer American dogs and American-trained 
dogs over foreign-sourced dogs, particularly the vendors that 
train them from puppies.
    Why do you have a preference in any context for a foreign-
sourced dog?
    Ms. Harvey. Sure. So, we don't actually have a preference 
for foreign-sourced dogs. However, we have a large 
requirement----
    Mr. Palmer. Oh yes.
    Ms. Harvey [continuing]. For a large number of dogs.
    Mr. Palmer. Let me ask you this. Do you not have an 
adequate supply of American-sourced dogs?
    Ms. Harvey. We are working very closely with our domestic 
vendors to buildup that supply. But we have not identified a 
large enough supply domestically to do that.
    Mr. Palmer. Have you fulfilled the contracts that you have 
with American companies?
    Ms. Harvey. We are working very closely with the vendors 
that we have. Those agreements are new.
    Mr. Palmer. The answer is no. You haven't fulfilled all 
your contracts. That is part of what bothers me is we don't 
have the perimeter security that I think is necessary at our 
airports and our rail transportation and other transportation 
hubs.
    You are not utilizing all of the assets that are available 
to you in terms of your funding. You don't have enough dogs. 
But there are contracts out there for dogs that you haven't 
fulfilled. I would like for you to check into that.
    Ms. Harvey. Thank you. We will.
    Mr. Palmer. All right.
    I yield the balance of my time. Thank you, Mr. Chairman.
    Mr. Perry. The Chair thanks the gentleman from Alabama.
    Before we close maybe a couple--I have one more question. 
And I think the Ranking Member has some thoughts.
    Ms. Harvey, there was a line of questioning from Ms. 
Barragan that kind of piqued my curiosity when you talked about 
how teams are stationed at airports based on traffic and so on 
and so forth.
    I understand some of this might be of sensitive nature and 
if it is I will expect you to refrain and just tell me we need 
to talk about that somewhere else. But can I make the 
presumption or assumption that the stationing of the units is 
based on a threat matrix that is reviewed on a somewhat regular 
or scheduled basis and then assets are moved based on that as 
well as traffic density and volume, et cetera?
    Ms. Harvey. Yes. In fact in 2016 we did relocate 28 of our 
canine, passenger screening canine teams from smaller, lower-
risk locations to some of the higher-risk locations. We do 
review that.
    Mr. Perry. Is there anything that Congress needs to do or 
information that you need to get to that you don't currently 
have or struggle to get regarding the efficacy of the threat 
matrix, the timeliness, and your ability to move assets 
adequately, timely? Is there anything lacking there for which 
there is something that we are in the way or we are holding up 
that we could make a difference for you?
    Ms. Harvey. No, I don't think so. I think we have all the 
authorities we need. We review the threat matrix, as you call 
it, pretty regularly. We have authority to move the teams 
around.
    Mr. Perry. You have a different name for that? That is the 
name--I am a military guy. So, you know, that is what I use.
    Ms. Harvey. Yes.
    Mr. Perry. But if you can school me, what is the correct 
terminology? I want to be--I don't want to be disrespectful.
    Ms. Harvey. It is the same thing. We call it a risk-based 
allocation.
    Mr. Perry. OK. All right. All right. Risk-based allocation. 
OK. So bottom line is, as far as you are concerned at this very 
moment in time you have the adequate tools for your risk-based 
allocation to do the job as necessary.
    Ms. Harvey. Yes. Yes, sir.
    Mr. Perry. All right. With that I recognize the Ranking 
Member.
    Mr. Correa. Thank you, Mr. Chair.
    First of all, I want to thank all of the folks that are 
here today in testimony. Also those police officers, peace 
officers, I want to join my colleagues in thanking you for 
service to our country and our citizens as well as to our 
canines as well.
    As I am hearing all of the testimony not only from our 
witnesses but also my colleagues here I am trying to put it all 
together. Because as the policymakers, an American policymaker, 
Member of this committee, you know, I always pray that day 
never come when the bad guys bust through and score on us 
again.
    So, you know, as I try to put the big picture together 
here, Ms. Harvey, you talk about allocation of resources, some 
low-threat to high-threat, that tells me that maybe we need 
more resources to cover both bases because I think, Mr. Montes, 
you said the bad guys are like, water that flows from, you 
know, to that area of high----
    Mr. Montes. Like water, sir, they are going to extort the 
path of least resistance.
    Mr. Correa. Thank you very much. I am not going to put 
words in your mouth. But I am convinced--I think you all, 
though you say you have adequate resources, I think this is an 
area you could use more resources.
    My colleague from Alabama says, you know, you are not 
buying enough of these resources from American sources and 
tells me maybe you are not ordering enough of these resources 
from American sources.
    But again, not putting words in your mouth, but I walk away 
from this hearing even more convinced than before that we need 
to invest more in our canine units. Very cost-effective.
    Dr. Carrick, I think you were saying that we can train them 
to do even more. I think we have got to go in that direction to 
defend our country, protect our citizenry, and to make sure 
that you do the best job you can in protecting our country.
    With that, Mr. Chair, I yield the remainder of my time.
    Mr. Perry. The Chair thanks the gentleman.
    Ladies and gentlemen we are just--we are really privileged 
to have you here today and learn a little bit about your world 
that we don't really think about unfortunately most of the 
time, right?
    When we see you, see the dogs, then it is on our mind. But, 
you know, 24 hours a day, 365 days a year you are out there and 
especially on this week it is important to acknowledge your 
significant contributions and to say thank you very much.
    We appreciate your efforts and your sacrifice to keep us 
safe. We want to be helpful. So if there is--if there is 
something that comes to mind after the hearing that you think 
we need to know that would be critical to assisting and aiding 
you in performing your duties and completing your mission 
effectively we need to know that.
    We encourage you to reach out and make sure that we have 
that information, and we will see if we can do our level best 
to make sure you are adequately equipped in whatever you need. 
Whatever it is that you need if there is a shortcoming we want 
to be there for you.
    So with that we thank you very, very kindly for your 
attention today and for your time away from wherever it is you 
work and for the dogs' attendance as well.
    Mr. Montes.
    Mr. Montes. Yes, I would like to add one last thing in 
there. Thank you for the opportunity to come and speak here 
today. Today you saw a small example of the capabilities of 
these canines. Within CBP we have such a dynamic and diverse 
environment.
    I do extend an invitation to yourself, sir, and your 
representatives as well to come and visit either one of our 
facilities so that you can get a global scope of how the Office 
of Training and Development, the United States Border Patrol, 
and the Office of Field Operations work together to ensure that 
our training environments emulate if not replicate the 
operational environment so that our effectiveness is top-notch.
    Mr. Perry. I appreciate that. I am sure we will consider 
taking you up on it. We will have to take a look at the travel 
schedule. Front Royal is pretty close. The other one is a 
little far. But maybe we could do something there.
    Anyhow, we have got some votes. So the Chair now thanks the 
witnesses for the valuable testimony and the Members for their 
questions.
    Members may have some additional questions for the 
witnesses. We will ask you to respond to these in writing. 
Pursuant to committee rule VII(D), the hearing record will 
remain open for 10 days. Without objection, the subcommittee 
stands adjourned.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]

                                 [all]




</pre></body></html>
